         Report No. D-2007-079                                             April 3, 2007




                  Performance-Based Service Contract for
                    Environmental Services at the Navy
                 Public Works Center, San Diego, California


                                                   Special Warning
This special version of the report has been revised to omit contractor proprietary data and source selection information.
  Additional Copies

  To obtain additional copies of this report contact the Secondary Reports
  Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AFAA                  Air Force Audit Agency
ELIN                  Exhibit Line Item Number
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
IDIQ                  Indefinite-Delivery, Indefinite-Quantity
IG                    Inspector General
MEO                   Most Efficient Organization
NAVFAC                Naval Facilities Engineering Command
OMB                   Office of Management and Budget
PWS                   Performance Work Statement
                                INSPECTOR GENERAL

                                DEPARTMENT OF DEFENSE

                                  400 ARMY NAVY DRIVE

                             ARLINGTON, VIRGINIA 22202-4704





                                                                                   April 3, 2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               NAVAL INSPECTOR GENERAL

SUBJECT: Report on Performance-Based Service Contract for Environmental Services
         at the Navy Public Works Center, San Diego, California
         (Report No. D-2007-079)


        We are providing this report for information and use. This report is the second of
two reports discussing the Office of Management and Budget Circular No. A-76 public­
private competition for environmental services at the Navy Public Works Center, San
Diego, California. We considered management comments on a draft of this report in
preparing the final report.

        Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Henry F. Kleinknecht at (703) 604-9324 (DSN 664-9324) or Ms. Rebecca L.
Yovich at (703) 604-9423 (DSN 664-9423). See Appendix G for the report distribution.
The team members are listed inside the back cover.

                                  By direction of the Deputy Inspector General for Auditing:


                                ~~~
                                              Richard B. Jolliffe

                                        Assistant Inspector General

                                    Acquisition and Contract Management





                                       Special Warning
This special version of the report has been revised to omit contractor proprietary data and source
selection information.
               Department of Defense Office of Inspector General
Report No. D-2007-079                                                       April 3, 2007
(Project No. D2005-D000CH-0123.001)

    Performance-Based Service Contract for Environmental Services
        at the Navy Public Works Center, San Diego, California

                                 Executive Summary

Who Should Read This Report and Why? Defense officials responsible for the Office
of Management and Budget (OMB) Circular No. A-76, “Performance of Commercial
Activities (Revised),” May 29, 2003, public-private competition process and DoD
acquisition and contracting personnel should read this report. It addresses the management
of a performance-based environmental services contract resulting from a public-private
competition and also discusses the use of fixed-price, performance-based, indefinite-
delivery, indefinite-quantity (IDIQ) task orders.

Background. On June 17, 2002, the Department of the Navy announced the decision to
perform a cost comparison of the environmental services function at the Public Works
Center in San Diego, California. One private contractor, Shaw Infrastructure, Inc.,
(Shaw) submitted a proposal to compete with the Government most efficient organization
(MEO). On August 16, 2004, the contracting officer conducted the cost comparison and
announced the tentative decision to select the Government MEO to perform the
environmental services at the Navy Public Works Center, San Diego. Shaw appealed the
tentative decision and the Administrative Appeal Authority sustained three of the five
appealed items. On December 3, 2004, the Administrative Appeal Authority recomputed
the cost comparison and determined the adjusted total in-house cost was $76.6 million,
$4.1 million more than Shaw’s adjusted total contract cost of $72.5 million, reversing the
tentative decision and ruling in favor of Shaw as the winner of the cost comparison. The
Navy awarded Shaw the performance-based, combination firm-fixed-price and IDIQ
environmental services contract on January 12, 2005.

This is the second of two reports discussing the OMB Circular No. A-76 public-private
competition for the environmental services function at the Navy Public Works Center,
San Diego. DoD Inspector General Report No. D-2006-036, “Public-Private Competition
for Environmental Services at the Navy Public Works Center, San Diego, California,”
December 8, 2005, addressed allegations of procedural and technical violations during the
public-private competition. During our review of the allegations, we identified issues with
the management of the performance-based environmental services contract and the use of
fixed-price, performance-based, IDIQ task orders. This report addresses those issues.

Results. The Navy Public Works Center was not effectively managing the performance-
based environmental services contract. As a result, the Navy Public Works Center was
unable to adequately assess Shaw’s performance on all performance requirements or
relate workload to payments because actual workload during the 6-month base and the
1-year option period was significantly less than established in the performance work
statement but the fixed payment remained the same. While some improvements have
been made in contractor performance, the Navy is not fully realizing the benefits of
performance-based service acquisition, to maximize contractor performance and
innovation at lower costs, with the contract as currently structured for the environmental
services function at the Navy Public Works Center, San Diego, California (finding A).

The Commanding Officer, Naval Facilities Engineering Command Southwest should
adequately staff the Government residual organization for the duration of the contract.
The contracting team should require Shaw to finalize a quality control program,
determine the adequacy of Shaw’s system for measuring each performance standard and
take appropriate action if the requirements are not met, and notify Shaw that it is not in
compliance with contract terms until the quality control plan is approved and all
performance standards are measured. Also, the contracting team should assess the
reasonableness and necessity of all performance standards in the contract, delete or revise
non-critical standards, and determine whether it is in the Navy’s best interest to continue
with the performance-based services contract. In addition, the contracting team should
ensure that contract language regarding workload fluctuations in future contracts is
specific about contract pricing changes and evaluate alternative methods of billing
customers. We also recommend that the Navy Director of Strategic Sourcing consider the
issues with performance-based contracting for environmental services before issuing the
solicitation for the Naval Facilities Engineering Command Mid-Atlantic environmental
services public-private competition.

The Navy Public Works Center also was not following sound procurement practices for
performance-based IDIQ work valued at $5.8 million annually. As a result, there was no
means to hold Shaw accountable for measurable performance outcomes on the
firm-fixed-price performance-based task orders. We calculate that during the base and
first option period, the Navy paid about $1.4 million more than negotiated in the
competitively sourced contract by using higher labor rates and over the next three option
periods will pay about $6.6 million more if the Navy continues to accept Shaw’s higher
labor rates. In addition, the Navy in-house team would have won the competitively
sourced environmental services function by about $7.1 million if Shaw had proposed the
higher labor rates (finding B).

The Commanding Officer, Naval Facilities Engineering Command Southwest should
adequately staff the contract administration and send contracting and technical support
staff to appropriate training for performance-based service acquisition and environmental
services. He should also instruct the contracting officer to determine whether
performance-based service acquisition is appropriate for the IDIQ requirements, include
measurable performance standards in IDIQ task orders, award IDIQ task orders using the
competitive rates from the competitively sourced contract, document the principal
elements of the negotiated agreement, track contract dollars by specific line items, and
request a reimbursement of $1,431,404 from Shaw.

Management Comments and Audit Response. The Director, Program Analysis and
Business Transformation, Deputy Assistant Secretary of the Navy (Acquisition
Management) and the Director, Navy Strategic Sourcing concurred with all
recommendations. All comments were responsive; therefore, additional comments are
not required. See the Finding sections of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.




                                             ii
Table of Contents

Executive Summary                                                                 i

Background                                                                        1

Objective                                                                         3

Findings
     A. Contract Management                                                       4
     B. Performance-Based IDIQ Task Orders                                       20

Appendixes
     A. Scope and Methodology                                                    41
     B. Prior Coverage                                                           43
     C. Comparison of Shaw Quality Control Plan and PWS Performance
          Requirements                                                           44
     D. Professional Services Labor Rates in the Contract for the First Option
          Period                                                                 55
     E. IDIQ Task Order Labor Rates for the Base Period                          56
     F. IDIQ Task Order Labor Rates for the First Option Period                  58
     G. Report Distribution                                                      60

Management Comments
     Deputy Assistant Secretary of the Navy (Acquisition Management)             61
     Navy Strategic Sourcing                                                     69
Background
          This is the second of two reports discussing the Office of Management and
          Budget (OMB) Circular No. A-76, public-private competition for the
          environmental services function at the Navy Public Works Center, San Diego,
          California. Congresswoman Susan A. Davis requested that we review allegations
          from the employees of the environmental department at the Navy Public Works
          Center, San Diego, California. The employees alleged several procedural and
          technical violations during the OMB Circular No. A-76 public-private
          competition. The employees also alleged potential adverse impacts as a result of
          the competition decision to award the environmental services function to a private
          sector provider, Shaw Infrastructure, Inc., (Shaw). We addressed the allegations
          in DoD Inspector General (IG) Report No. D-2006-036, “Public-Private
          Competition for Environmental Services at the Navy Public Works Center, San
          Diego, California,” December 8, 2005. During our review of the allegations, we
          identified issues with the management of the performance-based service contract
          for environmental services and the use of fixed-price, performance-based,
          indefinite-delivery, indefinite-quantity (IDIQ) task orders. These issues are
          addressed in this report.

          Public-Private Competition for Environmental Services. On June 17, 2002,
          the Department of the Navy announced the decision to perform a cost comparison
          of the environmental services function at the Public Works Center in San Diego,
          California. The cost comparison is a public-private competition process required
          by OMB Circular No. A-76 to compare the cost of Government performance with
          contract performance. About 103 positions were included in the public-private
          competition process. The Navy Public Works Center, San Diego, environmental
          services function falls under the chain of command of the Naval Facilities
          Engineering Command (NAVFAC) 1 and is responsible for providing a wide
          range of environmental services to customers throughout the Commander Navy
          Region Southwest area of cognizance. These services included laboratory
          analysis and testing, industrial and oily waste water treatment, hazardous waste
          handling and treatment, site assessment and remediation, and special projects.

          On October 16, 2003, the Navy issued a solicitation for the OMB Circular
          No. A-76 cost comparison study to provide environmental services. The
          performance work statement (PWS) was based on a performance-based
          contracting template to ensure Navy-wide consistency, and included
          firm-fixed-price requirements, which represented ongoing, recurring work; and
          IDIQ requirements, which represented one-time, nonrecurring work. One
          contractor, Shaw, submitted a technical and price proposal to the solicitation.
          After four rounds of discussions with the evaluation boards, the source selection
          authority selected Shaw as the best value contractor to compete with the
          Government most efficient organization (MEO) in the cost comparison.

          On August 16, 2004, the contracting officer conducted the cost comparison and
          announced the tentative decision to select the Government MEO to perform the


1
    On August 1, 2005, the Navy Public Works Center, San Diego, California, merged with the NAVFAC
    Southwest Division to become NAVFAC Southwest.




                                                   1
           environmental services at the Navy Public Works Center, San Diego. The
           adjusted total cost to contract with Shaw for the services was $72.3 million,
           $12.2 million more than the MEO’s adjusted total in-house cost of $60.1 million.
           Shaw subsequently appealed the tentative decision, stating that five items were
           not properly accounted for in the in-house cost estimate. The MEO did not
           submit an appeal during the eligible period. On December 3, 2004, the
           Administrative Appeal Authority sustained three of the five appealed items and
           increased the in-house cost estimate accordingly. The Administrative Appeal
           Authority recomputed the cost comparison and determined the adjusted total
           in-house cost should have been $76.6 million, $4.1 million more than Shaw’s
           adjusted total contract cost of 72.5 million. 2 The Administrative Appeal
           Authority’s final decision reversed the tentative decision and ruled in favor of
           Shaw as the winner of the cost comparison.

           Performance-Based Contract for Environmental Services. The Department of
           the Navy awarded contract N68711-03-D-4302 to Shaw on January 12, 2005. The
           contract was a performance-based, combination firm-fixed-price and IDIQ
           contract for performance of environmental services at the Navy Public Works
           Center, San Diego, California. The Government continued to provide services
           during the 79-day (approximately 3 months) phase-in period. Shaw fully assumed
           performance of environmental services on April 1, 2005. On October 1, 2006, the
           contracting officer exercised the second contract option period. As shown in
           Table 1, the contract was valued at about $13.6 to $14.1 million annually.


                                       Table 1. Awarded Contract Value

           Performance Period           Duration      Firm-Fixed-Price            IDIQ                 Total

           Phase-in Period             3 months          $     399,941                0         $      399,941
           Base Period                 6 months              3,861,099      $ 3,829,355              7,690,454
           Option Period 1              1 year               7,834,287        5,785,788             13,620,075
           Option Period 2              1 year               7,946,784        5,828,565             13,775,349
           Option Period 3              1 year               8,058,512        5,872,410             13,930,922
           Option Period 4              1 year               8,171,539        5,917,352             14,088,891
           Option Period 5             3 months              1,930,547        1,914,784              3,845,331

             Total                      5 years          $38,202,709        $29,148,254         $67,350,963


           Performance-Based Services Acquisition Requirements. In a memorandum to
           the Secretaries of the Military Departments, and the Directors, Defense agencies
           dated April 5, 2000, the Under Secretary of Defense for Acquisition, Technology,
           and Logistics stated that it is the policy of DoD that, in order to maximize
           performance, innovation, and competition (often at lower cost), performance-
           based strategies for the acquisition of services are to be used wherever possible.
           In order to ensure that DoD continually realizes savings and performance gains, he


2
    Shaw’s adjusted total contract cost includes about $5.1 million for the costs of contract administration,
    one-time conversion, Federal income taxes, and the minimum conversion differential. These costs are
    calculated based on a percentage of the in-house personnel costs, which were increased by the appeal.




                                                        2
    established that a minimum of 50 percent of service acquisitions, measured in
    both dollars and actions, should be performance-based by the year 2005.

    Section 821, “Improvements in Procurement of Services,” of Public Law 106-398,
    “Floyd D. Spence National Defense Authorization Act for Fiscal Year 2001,”
    October 30, 2000, established a preference for performance-based service
    contracting. The law states that the term “performance-based” includes the use of
    PWSs that set forth contract requirements in clear, specific, and objective terms
    with measurable outcomes. The law requires the Secretary of each Military
    Department to establish service contracting centers of excellence and to provide
    enhanced training in service contracting.

    The Federal Acquisition Regulation (FAR) Part 37, “Service Contracting,”
    requires the use of performance-based acquisitions for services to the maximum
    extent practicable and states that services should be obtained in the most
    cost-effective manner, without barriers to full and open competition. A service
    contract is defined as a contract that directly engages the time and effort of a
    contractor whose primary purpose is to perform an identifiable task rather than to
    furnish an end item of supply. The FAR requires performance-based contracts for
    services to include a PWS; measurable performance standards in terms of quality,
    timeliness, and quantity; the method of assessing contractor performance against
    performance standards; and performance incentives where appropriate.


Objective
    Our overall audit objective was to review selected portions of the OMB Circular
    No. A-76 process and the decision to award the environmental services function
    at the Navy Public Works Center, San Diego, California, to a private contractor.
    Specifically, we reviewed the allegations made to Congresswoman Susan A.
    Davis to determine whether the Navy decision to award the contract to Shaw
    Infrastructure, Inc., was in accordance with appropriate policies and procedures.
    On December 8, 2005, we issued DoD IG Report No. D-2006-036, “Public-
    Private Competition for Environmental Services at the Navy Public Works
    Center, San Diego, California,” which addressed the specific allegations
    contained in the congressional request. During our review of the allegations we
    identified issues with the management of the performance-based environmental
    services contract and the use of fixed-price, performance-based, IDIQ task orders.
    This report addresses those issues. See Appendix A for a discussion of the scope
    and methodology. See Appendix B for prior coverage related to the objectives.




                                        3
                   A. Contract Management
                   The Navy Public Works Center was not effectively managing the
                   performance-based contract for the environmental services function at the
                   Navy Public Works Center, San Diego, California. The service provider,
                   Shaw, assumed responsibility for the environmental services function from
                   the in-house Government team as the low-bid, technically acceptable offeror
                   on April 1, 2005. Contract performance was marginal to unsatisfactory
                   during the first performance period. The Navy Public Works Center could
                   not effectively manage contractor performance because:

                           •   the contract contained 78 performance measures and Shaw did
                               not fully implement a quality control program to measure all
                               contract performance requirements (best practices for
                               performance-based services acquisition recommend only a few
                               meaningful performance measures);

                           •   Shaw was paid a fixed amount for performance that was not
                               dependent on measurable quantity outputs, such as the number
                               of laboratory tests performed, gallons of industrial and oily
                               waste water treated, and pounds of hazardous waste stored and
                               disposed of, while the Navy received reimbursements from
                               clients based on these actual quantity outputs; and

                           •   the Government residual organization 3 was not adequately
                               staffed for the additional level of oversight that has been
                               required on this contract since the contractor’s staff did not
                               have the necessary experience to effectively perform the
                               environmental services requirements.

                   As a result, the Navy Public Works Center, San Diego, was unable to
                   adequately assess Shaw’s performance on all performance requirements or
                   relate workload to payments because actual workload during the 6-month
                   base and the 1-year option period was significantly less than established in
                   the PWS though the fixed payment remained the same. While some
                   improvements have been made in contractor performance, the Navy is not
                   fully realizing the benefits of performance-based service acquisition, to
                   maximize contractor performance and innovation at lower costs, with the
                   contract as currently structured for the environmental services function at
                   the Navy Public Works Center, San Diego, California.


Contractor Performance
          Base Period. Shaw did not perform the contract requirements at a satisfactory
          level during the 6-month base performance period, April 1 through September 30,


3
    The Government residual organization, composed of NAVFAC Southwest employees, is responsible for
    monitoring Shaw’s performance to ensure Shaw performs the contract requirements.




                                                   4
           2005. During the performance period, the contracting officer issued Shaw a cure
           notice 4 for failure to comply with the PWS requirements, and the assessing
           official gave Shaw a “ * 5 ” contractor performance assessment report for
           performance of the contract requirements. By the time that the assessing official
           prepared the contractor performance assessment report, the contracting officer
           had already exercised the first option period on October 1, 2005. In the
           memorandum for the contract file regarding the determination to exercise the first
           option period, the contracting officer stated that exercising the option would
           ensure continuity of services and preclude the potential costs of disrupting
           operations, and that exercise of the option was the most advantageous method of
           fulfilling the Government’s need, considering price and other factors.

           *5




           First Option Period. According to the officer in charge, Shaw’s performance in
           the first option period, October 1, 2005, through September 30, 2006, improved
           over the previous performance period, and he commended Shaw for hiring
           additional personnel for waste characterization and quality control operations and
           for improving business relations with the Government and customers. However,
           he stated that the Government continued to have concerns with contractor
           performance, such as repeated basic operations violations, corrective actions
           taken, and the time frame in which situations were corrected. The officer in
           charge stated that continued efforts were required for Shaw to further improve
           overall performance, to complete and enforce quality control documentation, and
           to better manage the subcontractors.


Quality Control Program
           The Navy cannot effectively manage contractor performance because the
           performance-based environmental services contract contained 78 performance
           measures and Shaw did not fully implement a quality control program for all
           contract requirements. Best practices for performance-based services acquisition
           recommend using only a few meaningful performance measures.

           Performance Objectives and Standards. Performance objectives are an end
           state that the organization wants to achieve. A performance standard is a targeted


4
    The contracting officer issues a cure notice to notify the contractor that the Government considers the
    contractor’s failures to be endangering performance of the contract. The contractor must “cure” the
    identified conditions in the specified amount of time or the Government may terminate the contract for
    default.
5
    This area of the report represents source selection information that was omitted.




                                                        5
level or range of performance for each characteristic that the Government
monitors. The environmental services contract had 37 firm-fixed-price PWS
specification items with 78 performance objectives and standards, or acceptable
quality levels. Because the environmental services function is highly regulated,
many of the performance standards required the service provider to comply with
Federal and State laws and regulations, Navy policies and procedures, or other
permits and regulations.

Guidelines for Quality Controls. “The Guidebook for Performance-Based
Services Acquisition in the Department of Defense,” December 2000, states that
the performance assessment plan is based on the premise that the contractor, not
the Government, is responsible for managing and ensuring that quality controls
meet the terms of the contract. The Guidebook defines a quality control plan as a
plan developed by the contractor for its internal use to ensure that it performs and
delivers high-quality service. According to the Guidebook, effective use of the
performance assessment plan, in conjunction with the contractor’s quality control
plan, will allow the Government to evaluate the contractor’s success in meeting
the specified contract requirements and the level of performance agreed to in the
contract. Thus, the Government role is to assess service provider performance to
measurable standards, and the service provider’s role is to assure quality through
its quality control processes and quality management system.

Quality Management Program. The environmental services contract PWS
required Shaw to establish and maintain a quality management program. The
quality management program was required to include:

       •   accurate documentation of production processes and output measures,

       •   a systemic procedure for assessing compliance with the production
           processes and production output standards,

       •   accurate documentation of quality checks conducted throughout the
           production processes,

       •   assessment-driven process adjustments, and

       •   a corrective and preventative action process.

The PWS also required Shaw to have a quality control manager, quality control
plans, and checklists. Additionally, Shaw was responsible for a quality control
inspection and reporting system for all performance requirements in the contract.
The quality control inspection and reporting system was required to consist of
documented processes and procedures for the production of services, as well as
systemic checking of production processes and outputs for compliance with
established practices and standards.

Standard Operating Procedures. The environmental services contract required
Shaw to develop standard operating procedures. Specifically, Shaw was required to
develop and submit the required standard operating procedures within 60 days after
the notice to proceed. Shaw stated in its technical proposal that it expected to
review and adopt the Navy’s existing operating procedures during the phase-in




                                     6
           period. * 6

           However, although not required by the contract, the Navy Public Works Center
           provided Shaw with copies of its standard operating procedures for reference
           purposes.

           Per the contract requirements, Shaw should have completed the required standard
           operating procedures during the approximately 3-month-long contract phase-in
           period. On May 23, 2005, the contracting officer issued Shaw a cure notice for
           failure to comply with PWS requirements, specifically stating that although the
           Government provided all Public Works Center working standard operating
           procedures to Shaw, more than 50 percent of the standard operating procedures
           had not been submitted for review. Additionally, the Government considered the
           standard operating procedures that Shaw had provided to be incomplete, and Shaw
           had not addressed the numerous comments on draft standard operating procedures.
           The Shaw program manager stated that Shaw had initiated a completion plan, and
           that all draft standard operating procedures would be submitted to the Navy by
           June 24, 2005. However, in October 2005, one of the residual organization
           members documented in a performance assessment that Shaw still did not have a
           standard operating procedure for the bio-remediation facility.

           On April 4, 2006, one year into Shaw’s performance of the environmental services
           contract, the NAVFAC Southwest Facilities Engineering Acquisition Division
           officer in charge sent Shaw a performance status letter, stating that considerable
           effort was still required to tie the standard operating procedures and the quality
           control plan together into a usable, applicable tool for quality environmental
           services, and that the current quality management system did not meet the PWS
           requirement.

           Shaw Quality Control Plan. Shaw submitted the first quality control plan on
           March 11, 2005. Shaw stated in the quality control plan that “our team recognizes
           the importance of the PWS, and our PWS tools substantiate our commitment to
           achieving PWS performance objectives and acceptable quality levels.” However,
           the quality control plan was general and did not specifically describe the quality
           controls in place to ensure that Shaw would meet all contract requirements,
           specifically the acceptable quality levels associated with the contract performance
           requirements. The residual organization business line manager commented that
           the plan should identify data needed for acceptable quality levels, identify how the
           data can be obtained, put procedures in place to acquire data, and establish
           procedures to process and report data in the monthly quality control reports.
           According to the residual organization, Shaw’s quality control program did not
           identify regulatory deficiencies, business application problems, or implement
           corrective action, and many deficiencies could have been avoided if Shaw had
           completed standard operating procedures in a timely manner. They stated that
           Shaw’s quality control program was not proactive but reactive to deficiencies
           identified by the residual organization or regulatory agencies.

           During the first option period, Shaw revised its quality control plan four times,
           submitting the fourth revision on July 17, 2006. The Shaw quality control


6
    This area of the report represents source selection information that was omitted.




                                                        7
manager commented that the residual organization should bear in mind that a
quality control plan is not intended to duplicate the quality control inspection
responsibilities and requirements in the standard operating procedures and quality
control checklists. The residual organization stated that the plan was a significant
improvement and Shaw was finally looking inward at the organization and how it
is performing rather than how an external audience perceived the performance.
According to the residual organization business line manager, although Shaw’s
quality control plan had improved, there were still incidents which should not
have occurred with adequate quality controls.

We reviewed Shaw’s July 17, 2006, quality control plan and August 2006
monthly performance report and compared them to the performance standards in
the PWS. We found that the quality control plan and monthly performance report
did not address all performance requirements. Specifically, as shown in Table 2,
of the 78 contract performance standards, Shaw’s quality control plan addressed
45 standards, did not address 18 standards, and it was questionable whether the
plan addressed 15 standards. In the August 2006 monthly performance report,
Shaw addressed 52 standards, did not address 22 standards, and it was
questionable whether 4 standards were addressed. We did not evaluate whether
Shaw was actually meeting the contract performance standards or the adequacy of
Shaw’s systems in place to measure the performance standards. For more detail
on the performance standards and quality control plan, see Appendix C.


Table 2. Performance Standards Addressed in Shaw’s Quality Control Plan
              and August 2006 Monthly Performance Report

                                     Lab       IWOW        CSWS      Other   Total

Performance Standards                 16          26            27     9       78

Quality Control Plan
 Yes                                   4          20            17     4       45
 No                                    6           2             8     2       18
 Questionable                          6           4             2     3       15

Monthly Performance Report
 Yes                                   5          23            19     5       52
 No                                   11           2             8     1       22
 Questionable                          0           1             0     3        4
CSWS       Containerized Solid Waste Services
IWOW       Industrial and Oily Waste Water Treatment Services
Lab        Laboratory Services


Maintaining an Effective Quality Control Program. The environmental
services contract clause 5252.246-9303, “Consequences of Contractor’s Failure to
Perform Required Services,” required the contractor to perform all of the contract
requirements and to maintain an effective quality control program during the
course of the contract. The clause stated that failure to maintain adequate quality
control may result in termination of the contract for default. Shaw should have a




                                        8
    quality control system for each performance requirement to be able to evaluate
    performance and identify the areas needing improvement. It is important that the
    contracting officer require that Shaw maintain an adequate quality control
    program to ensure that contract requirements are accomplished in accordance with
    the performance standards and to allow the residual organization to monitor
    performance as conceptualized in the performance-based services acquisition
    guidelines. Therefore, the contracting officer needs to require Shaw to have a
    quality control program that addresses all contract performance standards and
    require that monthly performance reports address each performance standard. The
    contracting officer and residual organization also need to determine the adequacy
    of Shaw’s system for measuring each performance standard, and take appropriate
    action if Shaw does not meet requirements. If Shaw fails to make progress in the
    performance of contractual requirements, the contracting officer should consider
    what options are available, including terminating the contract for default.
    Additionally, the contracting officer should notify Shaw that it is not in
    compliance with contract terms until the quality control plan is approved and all
    performance standards are measured and met, and withhold payment if necessary.

    Best Practices. Best practices for performance-based service acquisition
    measurements and metrics suggest selecting only a few meaningful measures on
    which to judge success and include contractual language for negotiated changes to
    the metrics and measures. There are 78 performance standards, or measures of
    success, in this environmental services contract. According to the residual
    organization, all of the performance standards established in the PWS are indicators
    of performance problems that could occur and are therefore necessary for the
    contract. While Shaw proposed they could perform all of the contract requirements
    at the required level of performance, the number of performance measures is
    extremely high and likely difficult to monitor. Therefore, the contracting officer, the
    residual organization, and Shaw should discuss the performance standards that are in
    the contract and determine if all are critical for performance of the environmental
    services and negotiate any performance standards that should be changed.


Measurable Outputs
    Shaw was paid a fixed amount for performance that was not dependent on
    measurable quantity outputs, such as the number of laboratory tests performed,
    gallons of industrial and oily waste water treated, and pounds of hazardous waste
    stored and disposed of, while the Navy received reimbursements from clients
    based on actual output. During the 6-month base period and the 1-year first
    option period of contract performance, the workload under the fixed-price line
    items of laboratory services and industrial and oily waste water treatment was
    significantly less than the amount established in the PWS. In addition, during the
    first option period, the workload under the fixed-price line item for containerized
    solid waste services was less than the amount established in the PWS. However,
    the contract contained vague language to address workload fluctuations.

    PWS Workload. The PWS specification items for the areas of laboratory
    services, industrial and oily waste water treatment, and containerized solid waste
    services referenced detailed historical workload data in the attachments to PWS




                                         9
technical exhibit JC-1801020-001. The PWS informed offerors that the technical
exhibits represented the type, quantity, and location of services to be provided.
The contractor was required to propose a staffing level for completion of the
contract requirements based on this information during the OMB Circular
No. A-76 public-private competition for environmental services. However,
according to residual organization data from the laboratory information
management system and the environmental waste billing and tracking system,
actual workload in the 6-month base period and 1-year option period significantly
fluctuated from the levels established in the PWS.

Table 3 shows the fluctuations between the PWS workload and the actual
workload during the 6-month base performance period, April 1 through
September 30, 2005. As shown in the table, Shaw performed 56.1 percent fewer
laboratory tests and treated 47.6 percent fewer gallons of industrial and oily waste
water. The workload for the containerized solid waste services requirements,
however, was 1.6 percent higher than established in the PWS.


            Table 3. Measurable Outputs for Fixed-Price Line Items
                 During the 6-Month Base Performance Period

                                    Lab              IWOW                CSWS
   Workload                        (tests)          (gallons)           (pounds)

   PWS                             17,515          29,486,750           2,069,465

   Actual                           7,691          15,440,809           2,102,406

   Percent Difference              (56.1)              (47.6)              1.6


Table 4 shows the fluctuations between the PWS workload and the actual
workload during the 1-year option performance period, October 1, 2005, through
September 30, 2006. As shown in the table, Shaw conducted 44.8 percent fewer
laboratory tests, treated 40.2 percent fewer gallons of industrial and oily waste
water, and stored or disposed of 17.5 percent fewer pounds of containerized solid
waste than was established in the PWS.


            Table 4. Measurable Outputs for Fixed-Price Line Items
                     During the 1-Year First Option Period

                                    Lab              IWOW                CSWS
   Workload                        (tests)          (gallons)           (pounds)

   PWS                             35,029          58,973,500           4,138,930

   Actual                          19,329          35,264,533           3,414,099

   Percent Difference              (44.8)              (40.2)            (17.5)




                                     10
Workload Fluctuation. The environmental services contract contained vague
language to address workload fluctuations. The PWS did include a specification
item for workload fluctuations that specifically stated:
       The Service Provider shall provide the services identified in this PWS
       for all PWC [Public Works Center] clients. Prior to start of
       performance, the Government will provide a listing of current clients.
       Because mission workload fluctuates from year to year, these
       requirements are considered to be within 10% of the range of mission
       requirements required of the Service Provider under the firm fixed price
       Customer Line Item Number (CLIN) established in Section B. Work
       that is within (i.e., plus or minus) 10% of the annual workload
       identified in Attachment JC-1801020-001 shall be performed as firm-
       fixed price work as identified in Section B and Attachment JB-1.

According to the contracting officer, the intent of this PWS specification item was
to support a contract modification if there was a substantial increase or decrease in
workload; however, the PWS was unclear on what was to happen if the workload
increase or decrease actually occurred. The contract did not include a variation in
quantities clause, which would allow either party to the contract to demand an
equitable adjustment when the permissible variation was exceeded.
Consequently, even though there were significant fluctuations in workload,
especially in the areas of laboratory services and the industrial and oily waste
water treatment, Shaw was paid the same fixed price for performing the services.

Proposed Contract Modification. On September 5, 2006, the contracting officer
issued a request for proposal under contract N68711-03-D-4302 for modification
number P00010. The contracting officer stated that due to considerable changes
in the scope of the contract, the significant decrease in workload for laboratory
and industrial and oily waste water services, the Government decreased the
estimated workload for the remaining contract option periods. The proposed
workload for the laboratory analytical services was 29,217 tests, a decrease of
16.6 percent from the PWS workload. The proposed workload for the industrial
and oily waste water treatment was about 30 million gallons, a decrease of
48.2 percent from the PWS workload.

The contracting officer exercised the second option year via modification
number P00010, effective on October 1, 2006. Although the contracting officer
had issued the request for proposal with a decreased workload requirement in the
areas of laboratory services and industrial and oily waste water treatment, when
the contracting officer exercised the option year, the workload levels remained the
same as before. The contracting officer stated that because Shaw’s proposal for
the second option year with reduced workload levels came in at a rate that was
higher than the competitively sourced contract rate, it was in the best interest of
the Government to exercise the option year at the original workload levels. The
contracting officer should ensure that the contract language regarding workload
fluctuations in future contracts for environmental services is specific about
contract pricing changes should significant variations in workload occur. The
contracting officer should also negotiate reduced workload levels in accordance
with the intent of the workload fluctuation contract language. If the negotiations




                                         11
are unsuccessful, the contracting officer should consider recompeting the
requirements at the next option year.

Business Operations. The Navy Public Works Center, San Diego, California, is
a Navy working capital fund organization. A working capital fund organization
must operate much like a business, receiving funding from customers rather than
through direct appropriation. Each year NAVFAC Southwest issues a notice of
the Navy working capital fund stabilized rate schedule to provide its clients with
rates for maintenance, engineering, utilities, transportation, environmental, and
other services. NAVFAC develops the working capital fund rates consistent with
the DoD and Department of Navy budget processes. The rates for most of the
environmental services are on a per test, per gallon, or per pound basis.

Although the Navy Public Works Center, San Diego, California, is reimbursed by
clients based on actual work completed, because the environmental services
contract with Shaw was a fixed-price contract, Shaw was not paid based on actual
workload or true output. This created a disconnect between the amount of money
coming into the Navy working capital fund and the amount being paid to Shaw for
performing the environmental services. Also, Shaw had no incentive to increase
output. This increased output would generate additional revenue for the Navy
working capital fund and potentially reduce rates for customer services. As a
result, Shaw was paid a fixed amount for performance that was not dependent on
measurable outputs, while the Navy received reimbursements from clients based
on actual output. Due to the setup of the Shaw fixed-price contract for
environmental services, the Commanding Officer, NAVFAC Southwest, should
consider evaluating alternative methods of billing customers for environmental
services. One method may be to charge customers a fixed price not dependent on
quantity to better synchronize with the environmental services contract terms.

Measurable Output Summary. The PWS technical exhibits provided extensive
historical Public Works Center environmental services workload data. While it is
true that historical data describe past experience and may not necessarily be
indicative of the future, Shaw’s proposal for the OMB Circular No. A-76
public-private competition was based on the historical data. Therefore Shaw was
paid a fixed price based on the historical workload data while actually performing
significantly less work, specifically in the areas of laboratory services and
industrial and oily waste water treatment services. The FAR requires
performance-based contracts for services to include measurable performance
standards in terms of quality, timeliness, and quantity. The performance-based
environmental services contract included performance standards in terms of
quality and timeliness for fixed-price contract line items relating to laboratory
services, industrial and oily waste water treatment, and containerized solid waste
services; however, the PWS did not adequately establish a link between the
performance standards and quantifiable measurable outputs in terms of quantity or
the number of analytical services or tests conducted, gallons of industrial and oily
waste water treated, or pounds of disposed containerized solid waste. As a result,
Shaw was paid for work that was not performed. The Commanding Officer,
NAVFAC Southwest should ensure that contracting personnel include measurable
performance standards in terms of quantity, quality, and timeliness in future
performance-based service contracts.




                                    12
Residual Organization Staffing and Contractor Experience
    The Government residual organization was not adequately staffed for the
    additional level of oversight that has been required on the performance-based
    environmental services contract.

    Guidance on Staffing. The OMB Circular No. A-76 and the OMB Circular
    No. A-76 Revised Supplemental Handbook did not provide guidance on the
    recommended size of the residual organization. According to DoD 4100.XX-M,
    “DoD A-76 Costing Manual,” March 14, 2001, contract inspection, quality
    assurance evaluation, and other administrative requirements that are common to
    contract and Government performance to assure acceptable performance by the
    service provider are not included in the contract administration factor as OMB
    considers this a common cost for all offerors. Quality assurance evaluators
    typically perform these responsibilities.

    The Performance Assessment Plan for the environmental services contract stated
    that the performance assessment representatives, formerly quality assurance
    evaluators, are the on-site representatives who assess service provider
    performance. The performance assessment representative roles and
    responsibilities are to periodically observe service provider performance, review
    delivered services, review quality management corrective actions, keep
    contemporaneous records of performance issues and results, periodically assess
    service provider performance for each contract performance objective, and
    communicate findings as necessary. The performance assessment plan estimated
    that four positions were required to monitor the performance of the environmental
    services service provider. The performance assessment plan also identified the
    other key Government performance assessment personnel as the senior
    performance assessment representative, the performance assessment board, and
    the designated Government representative, but did not identify an estimated
    number of positions required for these responsibilities.

    Residual Organization Staffing. The residual organization was staffed with six
    positions: one business line manager who was designated as the senior
    performance assessment representative and contract designated Government
    representative, four subject matter experts who were designated as the
    performance assessment representatives, and one management analyst responsible
    for billing and funding. According to members of the residual organization, they
    were unable to adequately monitor contractor performance because they had to
    spend time partnering with Shaw and training Shaw personnel to perform the
    contract requirements. In addition to monitoring and documenting Shaw’s
    performance in accordance with the performance assessment plan, the residual
    organization members stated that they also had to deal with the day-to-day fleet
    operations, coordinate work induction, develop scopes of work and independent
    Government estimates for IDIQ requirements, educate Government acquisition
    staff on operational implications, participate in negotiations, and review Shaw’s
    proposals and prepare the Government position for IDIQ task orders.

    Additionally, the residual organization members stated that they had to review and
    coordinate the review of Shaw deliverables, procure Government-furnished




                                        13
           materials and services, evaluate the appropriateness of costs Shaw incurs on
           behalf of the Government, oversee the budget, initiate funding documentation for
           change orders or new work, and prioritize and manage requests for additional
           resources. Furthermore, the residual organization members stated that they must
           facilitate interactions between Shaw and supported commands, provide quality
           assurance for record keeping requirements, participate in performance evaluation
           board meetings, and assist in developing any reports that the contracting officer
           issues to Shaw.

           * 7 The residual organization is staffed to meet the minimum requirements if the
           contractor was successfully performing the contract requirements. However,
           because the contractor did not have an adequate quality control system in place,
           and the residual organization had to spend time training, among many other daily
           duties, the administrative burden is too much for the current staffing level to
           perform. The Commanding Officer, NAVFAC Southwest needs to ensure that the
           residual organization is adequately staffed for the duration of the contract.

           Contractor Experience. Shaw stated in its contractor work plan for the OMB
           Circular No. A-76 public-private competition that a major emphasis would be
           placed on recruiting qualified incumbent personnel who had the skills to
           contribute effectively to Shaw’s proposed management and technical approach.
           Shaw stated that a key element of its organizational structure would be qualified
           staff from the existing pool of incumbent employees to fulfill 90 percent of
           staffing and ensure continuity of operations. *7




           When the Navy announced the public-private competition for environmental
           services in June 2002, there were 103 affected positions. According to the Shaw
           deputy project manager, the Public Works Center provided a list of 59 adversely
           impacted Public Works Center, San Diego employees. Eighteen employees
           interviewed and were offered positions with Shaw and 16 accepted positions and
           were on board when Shaw began full performance on April 1, 2005. This
           accounted for about 27 percent of the 59 adversely impacted employees identified
           by the Public Works Center. According to Shaw’s organization chart dated
           October 16, 2006, only four of the adversely impacted Public Works Center
           employees were still on board with Shaw. The inability to hire and retain the
           experienced Government workers has had a serious impact on contractor
           performance and the need for additional contract oversight.

           Lessons Learned. Shaw planned to hire 90 percent of the incumbent Public
           Works Center, San Diego workforce; however, it was only able to retain 4 of the
           incumbent workers. Shaw has had performance problems throughout the base and

7
    This area of the report represents source selection information that was omitted.




                                                       14
           first option period. The environmental services contract is currently in the second
           option year and will have to be recompeted in about 2 more years. * 8 and,
           according to the residual organization, it is uncertain that there will be more
           competition during the private-private recompetition for environmental services.

           NAVFAC Mid-Atlantic Competition. On September 14, 2006, the Department
           of the Navy announced a public-private competition for the NAVFAC
           Mid-Atlantic environmental services and pest management. According to a
           NAVFAC Competitive Sourcing Program Analyst, this is the second competition
           for the NAVFAC Mid-Atlantic environmental services, as the Government MEO
           won the first competition because no private offers were received. As of
           December 15, 2006, the competition was in the preliminary planning phase and
           the PWS was under development. The Navy Director of Strategic Sourcing
           should consider the issues with performance-based contracting for environmental
           services and the need for experienced contractor service providers identified in
           this report before issuing the solicitation for the NAVFAC Mid-Atlantic
           environmental services public-private competition.


Other Matters of Interest
           Technical Evaluation. *8




8
    This area of the report represents source selection information that was omitted.




                                                       15
Conclusion
    The competitive sourcing goal in the 2002 President’s Management Agenda states
    that competition generates significant savings and noticeable performance
    improvements. Specifically, competition promotes innovation, efficiency, and
    greater effectiveness. Performance-based contracting methods are intended to
    ensure that required performance quality levels are achieved and that total
    payment is related to the degree that services performed meet contract standards.
    The theory of performance-based service acquisition is that it improves the quality
    of services, results in cost savings, maximizes competition and innovation, and
    shifts the risk from the Government to industry because the contractor is
    responsible for achieving the objectives. However, environmental services
    functions are highly regulated, and the required outcomes must be achieved by
    prescribing to Federal and State laws and regulations. Although it appears that
    Shaw’s performance improved over the performance during base period, the
    residual organization still identified many performance concerns during
    performance assessments. The problems with contractor performance during the
    first two performance periods of the contract raise questions as to the extent to
    which the goals for competitive sourcing and performance-based services
    contracting of reducing costs, improving performance, and focusing on outcomes
    rather than processes are being achieved for the environmental services function at
    the Navy Public Works Center, San Diego, California. Therefore, the
    Commanding Officer, NAVFAC Southwest should require the contracting team to
    determine whether it is in the Navy’s best interest to continue with the
    performance-based service contract or whether the environmental services
    requirements should be recompeted under a different type of contract.


Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Commanding Officer, Naval Facilities
    Engineering Command Southwest:

           a. Require the contracting team to:

                   (1) Require Shaw to finalize a quality control program that
    addresses all contract performance standards and require that monthly
    performance reports address each performance standard.

    Management Comments. The Director, Program Analysis and Business
    Transformation concurred, stating that NAVFAC Southwest has required Shaw to
    revise its quality control plan to specifically address the performance standards in
    the performance work statement by April 16, 2007. Shaw significantly improved
    the monthly performance reports by addressing the performance standards and
    providing supporting documentation to substantiate that the performance standards
    have been met.

    Audit Response. Management comments were responsive to the recommendation.




                                        16
             (2) Determine the adequacy of Shaw’s system for measuring
each performance standard, and if the requirements are not met, take
appropriate action.

Management Comments. The Director, Program Analysis and Business
Transformation concurred, stating that NAVFAC Southwest identified three areas
to determine the adequacy of Shaw’s system for measuring the performance
standards: monthly performance reports, customer complaints, and Notices of
Violations. Based on the improvement of the monthly performance reports and the
reduced number of customer complaints and Notices of Violations, NAVFAC
Southwest has determined Shaw’s system of measurement is adequate. NAVFAC
Southwest will continue to monitor these three areas and if requirements are not
met, they will be documented appropriately in the Contractor Performance
Assessment Reporting System and additional action will be taken as appropriate.

Audit Response. Management comments were responsive to the recommendation.

              (3) Notify Shaw that it is not in compliance with contract
terms until the quality control plan is approved and all performance
standards are measured and met, and withhold payment if necessary. If
Shaw fails to make progress in the performance of contractual requirements,
the contracting officer should consider what options are available, including
terminating the contract for default.

Management Comments. The Director, Program Analysis and Business
Transformation concurred, stating that NAVFAC Southwest has issued Shaw a
notice of noncompliance with the quality control plan. Shaw has made significant
process in its system that measures performance standards. If Shaw does not
continue to make progress, NAVFAC Southwest will document instances of
noncompliance in the Contractor Performance Assessment Reporting System and
may proceed with re-procurement if needed.

Audit Response. Management comments were responsive to the recommendation.

              (4) Assess the reasonableness and necessity of the performance
standards in the contract and revise or delete noncritical performance
standards.

Management Comments. The Director, Program Analysis and Business
Transformation concurred, stating that NAVFAC Southwest has already opened
discussions with Shaw and has completed the review of the performance
standards for the industrial and oily waste water treatment commodity. Seven
performance standards were consolidated into other standards and three were
deleted entirely. NAVFAC Southwest will continue to review the remaining
commodities and will complete this review in time for the revised performance
standards to be incorporated in Shaw’s revised quality control plan.

Audit Response. Management comments were responsive to the recommendation.




                                   17
               (5) Ensure that the contract language regarding workload
fluctuations in future contracts for environmental services is specific about
contract pricing changes, should significant variations in workload occur.

Management Comments. The Director, Program Analysis and Business
Transformation concurred, stating that NAVFAC Southwest is coordinating with
NAVFAC Atlantic to develop a standard clause to be used for environmental
services for future solicitations. NAVFAC Southwest will include clear language
regarding workload fluctuations and contract pricing in future solicitations.

Audit Response. Management comments were responsive to the recommendation.

               (6) Negotiate reduced workload levels in accordance with the
intent of the workload fluctuation contract language, and if the negotiations
are unsuccessful, consider recompeting the requirements at the next option
year.

Management Comments. The Director, Program Analysis and Business
Transformation concurred, stating that NAVFAC Southwest is currently in
negotiations with Shaw to reduce the contract price to coincide with the reduced
workload level, taking into consideration fixed and variable costs. If negotiations
are unsuccessful, NAVFAC Southwest will explore other alternatives, including
recompeting the requirements.

Audit Response. Management comments were responsive to the recommendation.

            (7) Evaluate alternative methods of billing customers for
environmental services.

Management Comments. The Director, Program Analysis and Business
Transformation concurred, stating that NAVFAC Southwest evaluated alternate
methods of billing for environmental services and considered billing models used
by other NAVFAC Echelon IV commands. NAVFAC Southwest concluded that
the current billing process is the best suited to ensure accountability for cost.

Audit Response. Management comments were responsive to the recommendation.

             (8) Ensure that future performance-based service contracts
include measurable performance standards in terms of quantity, quality, and
timeliness.

Management Comments. The Director, Program Analysis and Business
Transformation concurred, stating that NAVFAC Southwest now issues
performance-based contracts that have standard performance-based statements of
work that identify the objectives that are to be achieved by the contractor.
Measurable performance standards are clearly defined and allow for contractor
performance to be assessed and to determine whether the performance objectives
have been met. New contracts will adequately measure quantity, quality, and
timeliness.

Audit Response. Management comments were responsive to the recommendation.




                                    18
              (9) Determine whether it is in the Navy’s best interest to
continue with the performance-based service contract or whether the
environmental services requirements should be recompeted under a different
type of contract vehicle.

Management Comments. The Director, Program Analysis and Business
Transformation concurred, stating that NAVFAC Southwest determined that a
performance-based acquisition contract will work for the environmental services
contract with the proper balance of prescriptive language. Additional resources
have been committed to the environmental services contract and NAVFAC
Southwest will continue to build on the improvements already initiated by Shaw.
Lessons learned and best practices will be incorporated into future contracts.

Audit Response. Management comments were responsive to the recommendation.

       b. Adequately staff the Government residual organization for the
duration of the contract.

Management Comments. The Director, Program Analysis and Business
Transformation concurred, stating that NAVFAC Southwest evaluated the
technical workload required by the contract and will provide two additional
technical personnel to the residual organization.

Audit Response. Management comments were responsive to the recommendation.

A.2. We recommend that the Navy Director of Strategic Sourcing consider
the issues with performance-based contracting for environmental services
and the need for experienced contractor service providers identified in this
report before issuing the solicitation for the Naval Facilities Engineering
Command Mid-Atlantic environmental services public-private competition.

Management Comments. The Navy Director of Strategic Sourcing concurred,
stating that this report has been forwarded to the Competitive Sourcing Center of
Excellence in Charleston, South Carolina, which has oversight over preparation of
the performance work statement and the solicitation for the NAVFAC Mid-Atlantic
environmental services competition. They have been advised to incorporate the
lessons learned from this report into the preparation of both the performance work
statement and the solicitation for that competition.

Audit Response. Management comments were responsive to the recommendation.




                                   19
               B. Performance-Based IDIQ Task Orders
                    The Navy Public Works Center was not following sound procurement
                    practices for sole-source, performance-based, IDIQ work valued at about
                    $5.8 million annually on the competitively sourced environmental services
                    contract with Shaw. Sound procurement practices were not being
                    followed because:

                              •   the contracting office was not adequately staffed and contract
                                  administrators were not adequately trained in performance-
                                  based services contracting for environmental services since the
                                  Navy had not established a Center of Excellence in Service
                                  Contracting or provided enhanced training in service
                                  contracting as required by the “Floyd D. Spence National
                                  Defense Authorization Act for Fiscal Year 2001”;

                              •   firm-fixed-price performance-based task orders were being
                                  used with statements of work and/or contractor proposals that
                                  contained conflicting language and did not adequately define
                                  contract requirements in “clear, specific, and objective terms
                                  with measurable outcomes” since the extent of environmental
                                  service requirements were often unknown; and

                              •   labor categories and burdened labor rates established in the
                                  competitively sourced contract were not used and IDIQ task
                                  order labor rates were significantly higher, about $* 9 for work
                                  performed by Shaw, versus the $*9 labor rate established in the
                                  competitively sourced contract, a difference of 89.1 percent.

                    In addition, the contracting officer did not prepare price negotiation
                    memorandums for task orders to document negotiated agreements or
                    contract modifications to transfer funds between different contract line
                    items that exceeded the contract maximum. As a result, there was no
                    means to hold Shaw accountable for measurable performance outcomes on
                    the firm-fixed-price performance-based task orders. We calculate that
                    during the base and first option period, the Navy paid about $1.4 million
                    more than negotiated in the competitively sourced contract by using the
                    higher labor rates and over the next three option periods will pay about
                    $6.6 million more if the Navy continues to accept Shaw’s higher labor
                    rates. In addition, the Navy in-house team would have won the
                    competitively sourced environmental services function by about
                    $7.1 million if Shaw had proposed the higher labor rates.


    Staffing and Training
           The Navy Public Works Center, San Diego, was not following sound procurement
           practices because the contracting office was not adequately staffed and contract

9
    This area of the report represents contractor proprietary data that was omitted.




                                                        20
           administrators were not adequately trained in performance-based services
           contracting for environmental services since the Navy had not established a
           Center of Excellence in Service Contracting or provided enhanced training in
           service contracting as required by the “Floyd D. Spence National Defense
           Authorization Act for Fiscal Year 2001.”

           Contract Administration Positions in the A-76 Competition. The OMB
           Circular No. A-76 Revised Supplemental Handbook, “Performance of
           Commercial Activities,” March 1996, provided guidance for the determination of
           the cost to the Government of obtaining a service by contract. Contract
           administration costs include the cost of reviewing compliance with the terms of
           the contract, processing payments, negotiating change orders, and monitoring the
           closeout of contract operations. The cost of contract administration does not
           include inspection and other administrative requirements that would be common
           to contract and Government performance to assure acceptable performance. The
           contract administration positions are programmatically calculated by
           win.COMPARE2, and are based on the MEO staffing, including the total number
           of both Government and subcontractor positions in the MEO. 10 The number of
           contract administration positions calculated for this competition was 5 full-time
           positions, based on the MEO staffing of 107 positions. The cost of contract
           administration, $1.8 million over the 5-year performance period, was included in
           the $72.5 million total adjusted cost of contract performance.

           Environmental Services Contract Administration. The contract and the IDIQ
           task orders were administered by the NAVFAC Southwest Division, San Diego,
           Resident Officer in Charge of Construction, now the Facilities Engineering
           Acquisition Division. According to the Facilities Engineering Acquisition
           Division officer in charge, there has been tremendous personnel turnover on this
           contract. Although the cost comparison included five full-time positions for
           contract administration, for the majority of the performance period of the
           environmental services contract, there was only one—either a contracting officer
           or a contract specialist administering the contract and IDIQ task orders.

           According to the officer in charge, from February 2005 through August 2005,
           only one contracting officer was assigned to the contract. The contracting officer
           departed in August 2005, and a contract specialist was assigned to the contract on
           a part-time basis, pending the transfer of a new contracting officer. The part-time
           contract specialist was the only person administering the contract until
           November 2005, when a new contracting officer was assigned to the contract.
           The new contracting officer worked on the contract for about a month and then
           was out of the office until the end of January 2006. As a result, the contract
           administration remained with the contract specialist until the contracting officer
           returned to work.

           In March 2006, an office assistant was assigned to the contract for a total of three
           positions administering the contract. In August 2006, the contracting officer left the
           office, and the administration of the contract and approximately 60 IDIQ task orders
           remained with the contract specialist and office assistant. In mid-August 2006 the

10
      The win.COMPARE2 software program was the mandatory costing software that DoD Components were
     required to use for development of the in-house cost estimate. DoD issued an upgraded version of the
     software program, COMPARE Version 2.1, on August 1, 2005.




                                                    21
initial contracting officer was reassigned to the contract. If this contract, which was
estimated as needing five positions for administration, continues to be administered
by one position on average, the contract management issues discussed in finding A
and issues with the IDIQ task orders discussed in this finding will most likely
persist. The Commanding Officer, NAVFAC Southwest needs to ensure that the
administration of contract N68711-03-D-4302 is adequately staffed for the duration
of the contract.

Service Contracting Centers of Excellence. Section 821, “Improvements in
Procurements of Services,” of Public Law 106-398, “Floyd D. Spence National
Defense Authorization Act for Fiscal Year 2001,” October 30, 2000, requires the
Secretary of each Military Department to establish Centers of Excellence in
Service Contracting. Specifically, Section 821(c), “Centers of Excellence in
Service Contracting,” states:
       Not later than 180 days after the date of the enactment of this Act, the
       Secretary of each military department shall establish at least one center
       of excellence in contracting for services. Each center of excellence
       shall assist the acquisition community by identifying, and serving as a
       clearinghouse for, best practices in contracting for services in the public
       and private sectors.

The contracting officer and the residual organization members stated that they had
not received any assistance or guidance from a Navy Center of Excellence in
Service Contracting. DoD IG Report No. D-2004-015, “Contracts for
Professional, Administrative, and Management Support Service,” October 30,
2003, recommended that the Acquisition Executives for the Army, the Navy, and
the Air Force establish and use Centers of Excellence in Service Contracting as
required by section 821(c) of Public Law 106-398. The Navy concurred stating
that the “Navy Virtual Center of Excellence for Service Contracting” was
scheduled to be fielded in the first quarter of FY 2004. In September 2006, the
Office of the Deputy Assistant Secretary of the Navy for Acquisition Management
stated that because the Defense Acquisition University was developing a
“Communities of Practice in Contracting” at the same time the Navy was planning
the “Navy Virtual Center of Excellence for Service Contracting,” the Navy instead
worked with the Defense Acquisition University to develop the Acquisition
Community Connection Web site. Under this community Web site, an
“Acquisition Center of Excellence for Services” was established in response to the
Service Acquisition Reform Act of 2003, section 1431(b) “Center of Excellence
in Service Contracting,” which states:
       Not later than 180 days after the date of the enactment of this Act, the
       Administrator for Federal Procurement Policy shall establish a center of
       excellence in contracting for services. The center of excellence shall
       assist the acquisition community by identifying, and serving as a
       clearinghouse for, best practices in contracting for services in the public
       and private sectors.

The Facilities Engineering Acquisition Division officer in charge and the residual
organization were not aware of the Defense Acquisition University Acquisition
Center of Excellence for Service Contracting, but stated after a quick review of
the Web site, that it appeared to be somewhat useful.




                                          22
DoD Service Acquisition. During FY 2006, the Government Accountability
Office (GAO) examined DoD’s approach to managing services in order to identify
the key factors DoD should emphasize to improve its management of services.
On November 9, 2006, GAO issued Report No. GAO-07-20, “Tailored Approach
Needed to Improve Service Acquisition Outcomes,” and stated that several key
factors at both the strategic and transactional levels were needed to improve
DoD’s service acquisition outcomes of obtaining the right service, at the right
price, in the right manner. GAO made six recommendations to improve DoD’s
strategic and tactical approach to acquiring services.

The Director, Defense Procurement and Acquisition Policy concurred with GAO’s
recommendations and stated that he is leading the Senior Procurement Executives
of the Military Departments, Defense Logistics Agency, and the Defense Contract
Audit Agency in the development of a comprehensive DoD-wide architecture for
the acquisition of services. The DoD-wide architecture will help refine the process
to develop requirements, ensure that individual transactions are consistent with
DoD’s strategic goals and initiatives, and provide a capability to assess whether
service acquisitions are meeting their cost, schedule, and performance objectives.
The Director, Defense Procurement and Acquisition Policy stated that DoD expects
the assessment to be completed in the first quarter of calendar year 2007. The
figure depicts the planned DoD architecture for service acquisition.


                                Acquisition of Services
                                       Management Consistent with FY 06 NDAA Section 812

             Functions provided by                                                                                    New
             Military Departments                                                     Strategic Contracting Tools             Others,
             consistent with DoD                                                      9 “Best Practices”                      ie; GSA
             Architecture                                                             9 Coordinated DoD-wide approach       USAF
                                                                                                                           Navy
                                                                                      9 Maximize competition             Army
                                                             Contract / Award         9 3-5 year performance periods
                                Local PCO uses                                                                          Tools
                               appropriate strategic                                  9 Emphasize small business
                                 contracting tool                                     participation and opportunities

                                                       Multi-functional Support Cadre
                   Procurement Request                 9 Apply Best Practices               Enhanced
                       to Local PCO                    9 State requirements clearly
                                                       9 Draft SOO                                Contract Administration/
                Refined & actionable                   9 Quality/Surveillance Plan               Performance Management
               requirements package
                                                       9 Identify appropriate
                                                       performance measures
                                                       9 Performance-based approach
               Requirement for                         used as appropriate
              contracted services                      9 Incentive Fee Structure with
                                                       metrics tied to expected
                                                       outcomes as appropriate
 Enclosure




             Initiate Acquisition                                                     New
                                                                                                         Task Completion
                                                                                                          or Deliverable



                              Potential for Significant Cost Savings
                                                                                                                         Draft 12-05-2006



Figure. Draft DoD Architecture for Acquisition of Services




                                                                  23
    Performance-based service acquisition is a fairly new concept to the Government
    and is difficult to apply to environmental services, which are highly regulated and
    must be performed in accordance with many Federal and State laws and
    regulations. There have been significant problems with this performance-based
    environmental services contract. Unless the Navy develops some expertise in
    performance-based service acquisition and provides assistance to the contract
    administration staff, these problems will persist. We support the Defense
    Procurement and Acquisition Policy efforts to improve the Department-wide
    approach to acquisition of services, and therefore have not included audit
    recommendations specifically addressed to the Navy to implement the Center of
    Excellence in Service Contracting.

    Enhanced Training in Service Contracting. Public Law 106-398 also requires
    the Secretary of each Military Department to provide enhanced training in service
    contracting. Specifically, Section 821(d)(2), “Enhanced Training in Service
    Contracting,” states:
           The Secretary of each military department and the head of each Defense
           Agency shall ensure that the personnel of the department or agency, as
           the case may be, who are responsible for the awarding and management
           of contracts for services receive appropriate training that is focused
           specifically on contracting for services.

    The contracting staff stated they had not received specific training on
    performance-based acquisition for environmental services, but the officer in
    charge and the lead contracting officer had been introduced to performance-based
    service acquisition as a part of other contracting classes. It is important that the
    contracting and technical staff receive training in both performance-based service
    acquisition and in the functional area of the contract to be administered.
    Therefore the contracting personnel and technical support staff should explore
    available options and attend appropriate training for performance-based service
    acquisition and for environmental services.


Firm-Fixed-Price IDIQ Task Orders
    The contracting officer awarded Shaw firm-fixed-price, performance-based, IDIQ
    task orders with statements of work and/or contractor proposals that contained
    conflicting language and did not adequately define contract requirements in “clear,
    specific, and objective terms with measurable outcomes” because the extent of
    environmental service requirements were often unknown.

    Performance-Based Acquisition Requirements. Section 821, of Public
    Law 106-398, establishes a preference for performance-based service contracting.
    Specifically, Section 821(e), “Definitions,” states:
           The term “performance-based”, with respect to a contract, a task order,
           or contracting, means that the contract, task order, or contracting,




                                             24
       respectively, includes the use of performance work statements that set
       forth contract requirements in clear, specific, and objective terms with
       measurable outcomes.

FAR Subpart 37.6, “Performance-Based Acquisition,” states that performance-
based contracts shall include measurable performance standards in terms of
quality, timeliness, and quantity, and the method of assessing contractor
performance against performance standards. The FAR instructs agencies to
describe the work in terms of the required results, enable an assessment of work
performance against measurable performance standards, and rely on the use of
measurable performance standards and financial incentives in a competitive
environment to encourage competitors to develop and institute innovative and
cost-effective methods of performing the work. In addition, the FAR states that
performance standards should be measurable, establish an acceptable performance
level, and be structured to permit an assessment of the contractor’s performance.

IDIQ Task Orders. Neither the environmental services contract PWS nor the
fixed-price IDIQ task orders identified any measurable performance outcomes or
acceptable levels of performance in terms of quality, timeliness, and quantity.
Additionally, the IDIQ task orders did not specify the method of assessing
contractor performance to ensure that Shaw provided the proposed level of
performance. Also, although the IDIQ task orders were awarded for a fixed price,
many task orders contained vague and imprecise language that was used to define
the requirements—not clear, specific, and objective terms with measurable
outcomes as required by the FAR and public law. The following are examples of
the vague, imprecise, and conflicting language that we identified in the IDIQ task
orders and/or contractor proposals.

        Task Order for Drinking Water Testing. On September 27, 2005, the
contracting officer awarded Shaw a fixed-price IDIQ task order to provide lead
and copper sampling and testing services at the southern distribution drinking
water system, Marine Corps Base Camp Pendleton. In the proposal for the
requirements of this task order, Shaw stated that “this letter presents our technical
approach and assumptions, funding requirements for a negotiated fixed price task
order, and anticipated schedule.” Although the task order and Shaw’s proposal
stated fixed price, the task order language suggested a level of effort, as the award
amount was “not to exceed” $150,000 and the statement of work specified that:
       Shaw will collect drinking water samples from up to 1,011 samplings
       locations designated by MCBCP [Marine Corps Base Camp Pendleton]
       FMD [Facilities Management Division]. . . . Our cost assumes that our
       field technicians/scientists can collect lead and copper water samples at
       an average rate of 10 samples per person per day. Therefore, we have
       assumed that this sampling effort will require approximately 100 person
       days to complete.

       On November 8, 2005, the contracting officer modified the task order by
$96,922 to provide additional funding to compensate Shaw for additional
laboratory testing identified in the original delivery order. The modification
increased the award amount to $246,922, the same amount that Shaw originally
proposed to perform the task order requirements. The contracting officer awarded




                                         25
a second modification for $235,000 on December 9, 2005, increasing the total
award value to $481,922. Shaw did not submit a proposal for the second task
order modification; however, the Shaw IDIQ project manager did inform the
contract specialist that Shaw would be unable to accomplish all “not to exceed”
items specified in the summary workload for the second modification. The
objective of the modification stated:
       Continue to provide Lead and Copper Sampling and Testing Services,
       Southern Distribution System Drinking Water System, Marine Corps
       Base Camp Pendleton, CA. The potential number of possible test sites
       at MCBCP is approximately 8,000. Task order 0044 was issued to
       sample and test approximately 1,000 sites. Modification 02 will
       provide the contractor a not to exceed amount of funds to continue with
       critical sampling and testing per the statement of work.

        Although the modification states that it is firm-fixed-price, the “not to
exceed” award amount and the language in the statement of work suggested a
specific level of effort. Specifically, the statement of work identified the summary
workload as not to exceed 1,200 labor hours; and sample testing as not to exceed
860 parameter monitoring samples, and not to exceed 500 lead/copper samples.
Also, the statement of work stated that Shaw will only bill the Government “for
samples that are tested” and “for labor hours expended.” Additionally, Shaw was
to provide a weekly summary to the residual organization showing the cumulative
labor hours and number of samples tested.

        While the original task order and first modification did not identify any
means to monitor Shaw’s performance, the second modification did provide a
means to identify the amount of work that the Government received from Shaw.
However, the language in the task order is not clear as to whether the Government
wants a specific number of sites sampled, a specific number of samples collected,
or a specific number of labor hours performed. Additionally, while the text of the
task order and modifications for the lead and copper testing suggested a level of
effort, Shaw billed the Government for a percentage of the total fixed price each
month.

        Task Order for Pipeline Removal. On October 1, 2005, the contracting
officer awarded Shaw a performance-based, fixed-price, IDIQ task order for
$375,000 to complete the removal of an abandoned pipeline and prepare site
closure documentation. The statement of work stated:
       This task order is for completion of the removal of the abandoned
       pipeline at UST 22 and preparation of site closure documentation. The
       duration of work under this Task Order will not exceed 180 calendar
       days including fieldwork, and approval of the Final Site Closure
       Report.

        Although the contracting officer did not incorporate Shaw’s proposal in
the task order, the task order was awarded for the same amount that Shaw
proposed to perform the work. Shaw proposed to subcontract the work to the
Anteon Corporation (Anteon) and planned to provide limited project oversight
and management, primarily consisting of schedule and financial tracking. Shaw




                                         26
stated that its funding requirements for the fixed-price task order were based on
Anteon’s understanding of the statement of work and its anticipated level of effort
to meet the objectives of the statement of work. Specifically, regarding the
$343,000 time and materials subcontract with Anteon (91 percent of the total task
order value), Shaw stated:
       The various tasks and deliverables specified in the SOW [statement of
       work] may not be completed within the technical assumptions and
       within the level of effort included in Anteon’s cost estimate. Shaw will
       notify the PWC [Public Works Center] Contracts Specialist and the
       PWC Subject Matter Expert if a modification to the Task Order is
       necessary.

         By signing the task order, which did not incorporate the contractor’s
proposal, Shaw agreed to complete all fieldwork and approval of the final site
closure report within 180 days, for the fixed price of $375,000. Even though
Shaw’s proposal for the fixed-price task order was based on a subcontractor’s
understanding of the level of effort required for the project, and Shaw stated that
the tasks “may not” be completed within the level of effort included in the cost
estimate, Shaw should be responsible for all efforts to complete all fieldwork and
the final site closure report by the date agreed to and for the price awarded.
According to the task order, Shaw should have completed the task order
requirements by April 1, 2006. Shaw’s invoice for the performance period ending
March 31, 2006, identified the task order as 87 percent complete. The May 17,
2006, Public Works Officer Report listed the task order status as active, stating
that fieldwork was completed, but the preparation of the closure report was still in
progress. The contracting officer should hold Shaw accountable for task order
performance requirements and deadlines.

        Task Order for Model Boat Range Remediation. On October 27, 2005,
the contracting officer awarded Shaw a performance-based fixed-price task order
for $1.35 million. The objectives of the task order were to develop a field
sampling and analysis work plan based on historical data; conduct field work in
accordance with regulations; prepare and modify the field sampling and analysis
plan, remedial design, and remedial action as necessary; perform a natural
resource survey at the site and complete all documentation necessary to facilitate
removal of activities at the site; and perform a geotechnical survey of the slope
located on the eastern boundary of the model range to evaluate the stability of the
ground plane. The statement of work estimated that the volume of lead-impacted
soil was 2,000 cubic yards. The statement of work did not specify a period of
performance, but did provide a schedule of deliverables and submittal due dates.

       Shaw proposed that the transportation and disposal of lead-impacted soil
would cost about $0.7 million, 52 percent of the total task order award value.
Shaw made the following statement regarding the soil:
       Shaw will remove up to 2,000 cubic yards (Shaw has assumed a
       material weight of 1.5 tons per cubic yard of in bank material, with a
       total removal effort not to exceed 3,000 tons) of lead impacted soil
       from the slopes around the MBR [model boat range]. Shaw will request




                                         27
                     a modification to the contract for quantities in excess of 3,000 tons
                     which shall be governed by the scale of the disposal facility.

                   Shaw’s proposal included loose language by stating that they would
           request a modification if the weight of the soil to be removed exceeded what they
           estimated. The statement of work did not identify any measures to determine the
           actual amount of soil that Shaw removed. Therefore, Shaw was able to request a
           modification if the weight of the soil was more than anticipated, but because the
           task order was awarded for a fixed price, the Government was not able to recoup
           money if Shaw removed less than 2,000 cubic yards of soil. Perhaps a better
           method would have been to establish a range relating to various levels of cubic
           yards of soil to be removed and price for removal for each yardage amount. As of
           September 30, 2006, the contracting officer had not awarded a modification to this
           task order. The November 15, 2006, Public Works Officer Report listed the task
           order status as active, stating that the project was still in the planning stage. The
           report identified the base impact end date as June 1, 2007.

           There are many risks and unknowns associated with environmental services such as
           site assessment and remediation, but the lack of clear measurable outcomes in the
           task orders makes it difficult to determine whether the customer is getting what they
           are paying for. There are also questions as to how much it will cost for contractors
           to assume this risk under firm-fixed-price task orders. If performance-based service
           acquisition is used for the IDIQ task orders, the contracting officer needs to include
           measurable performance outcomes in terms of quantity, timeliness, and quality in
           the IDIQ task orders; needs to review Shaw’s performance of the IDIQ
           requirements; and needs to hold Shaw accountable for task order requirements and
           deadlines. However, performance-based task orders may not be the best contracting
           method for the IDIQ requirements because there are so many unknowns involved in
           the site assessment and remediation area of environmental services and the cost
           premium for contractors to assume this risk. The contracting officer needs to
           determine whether performance-based service acquisition is appropriate for the
           IDIQ requirements in the environmental services contract, or whether another
           contracting method should be used, such as time and materials or multiple task
           orders where the first task order would be awarded to identify the problem and the
           second task order would be awarded to resolve the problem.


Labor Rates
           Labor categories and burdened hourly rates established in the competitively
           sourced contract were not used and rates used on individual task orders were
           significantly higher, about $* 11 for work performed by Shaw, versus the $*11 labor
           rate established in the competitively sourced contract, or a difference of
           89.1 percent.

           Competitively Sourced Contract IDIQ Labor Rates. The IDIQ portion of the
           environmental services PWS required the contractor’s proposal to be based on a
           specified number of labor hours for various professional skill sets and job
           classifications. The PWS identified 12 different skill sets for a total of

11
     This area of the report represents contractor proprietary data that was omitted.




                                                        28
            * 12 labor hours for each performance period. 13 Table 5 shows the average fully
            burdened labor rate Shaw proposed and the amount awarded for the IDIQ contract
            requirements for the 6-month base period and the 1-year option periods.


                           Table 5. Average Fully Burdened IDIQ Labor Rates
                                  in the Competitively Sourced Contract

                                                    Labor           Average Fully              Total
                Performance Period                  Hours1          Burdened Rate2            Amount3

                Base Period                                                                 $1,801,034
                Option Period 1                                                              2,743,284
                Option Period 2                                                              2,786,060
                Option Period 3                                                              2,829,906
                Option Period 4                                                              2,874,848
            1
             Source selection information omitted.
            2
             Contractor proprietary data omitted.
            3
             The total amount cannot be calculated by multiplying the hourly rate by the labor hours due to
            rounding of the hourly labor rate.


            Table 6 shows the specific professional skill set classifications and required labor
            hours identified in the PWS, Shaw’s proposed labor rates, and the fully burdened
            hourly labor rate for the first option period of the competitively sourced
            environmental services contract. The fully burdened labor rate for each
            professional skill set included:

                     •   labor burden, consisting of fringe benefits, earned leave, and overhead,
                         at * 14 depending on whether or not the position was subject to the
                         service contract act;

                     •   overhead at *14 ; 15
                     •   general and administrative expense at *14 ; and

                     •   profit at *14 .
            See Appendix D for the full breakout of the fully burdened labor rates for the
            professional skill set classifications for the first 1-year option period.




12
     This area of the report represents source selection information that was omitted.
13
      The awarded IDIQ requirements in the competitively sourced contract were [source selection
     information omitted] labor hours in the 6-month base period and [source selection information omitted]
     labor hours for each of the four 1-year option periods.
14
     This area of the report represents contractor proprietary data that was omitted.
15
     Contractor proprietary data omitted.




                                                        29
                         Table 6. IDIQ Labor Rates for the First Option Period
                                 in the Competitively Sourced Contract

                                                                      Hourly      Burdened        Total
                                                        Labor         Labor        Hourly        Burdened
           Professional Skill Set Classification        Hours1        Rate2        Rate2         Amount

           Principal Geologist/Engineer                                                      $   100,152
           Senior Geologist/Engineer                                                             985,931
           Staff Geologist/Engineer                                                              241,116
           Quality Control Manager                                                                98,892
           Physical Science Technician                                                           376,301
           Graphics Specialist                                                                   125,710
           Database Manager                                                                      124,758
           Senior Environmental
             Protection Specialist                                                                64,962
           Environmental Protection Specialist                                                   296,900
           Associate Environmental
             Protection Specialist                                                                44,298
           SCAPS3 Data Acquisition Specialist                                                     73,638
           SCAPS3 Operations Manager                                                             211,432

           Total4                                                                            $2,744,090

           1
             Source selection information omitted.
           2
             Contractor proprietary data omitted.
           3
             Site Characterization and Analysis Penetrometer Systems.
           4
             Total Burdened Amount does not equal the Total Amount shown in Table 5 due to rounding.


           IDIQ Task Order Labor Rates. The Navy awarded Shaw the environmental
           services contract based on the labor rates in Table 6; however, we reviewed
           Shaw’s proposals for 21 of the fixed-price IDIQ task orders and modifications
           awarded during the 6-month base period and determined the average fully
           burdened labor rate was $* 16 . This was 89.1 percent higher than the rates Shaw
           proposed for IDIQ requirements in the OMB Circular No. A-76 competition. We
           also reviewed Shaw’s proposals for the 20 fixed-price IDIQ task orders and
           modifications awarded during the first option period and determined the average
           fully burdened labor rate was $*16. This was an increase of 82.3 percent from the
           rates proposed in the OMB Circular No. A-76 competition.

           As shown in Table 7, the average burdened labor rate by Shaw personnel category
           for the base period and the first option period was $*16. See Appendixes E and F
           for the average fully burdened labor rates calculations, by labor category, for task
           orders awarded in the base period and the first option period.



16
     This area of the report represents contractor proprietary data that was omitted.




                                                       30
                                    Table 7. IDIQ Task Order Labor Rates

                                                              Labor         Burdened       Total
               Professional Services                          Hours1         Rate1        Amount

               Base Period – Exempt                                                     $ 128,226
               Option Period 1 – Exempt                                                    87,375
                Subtotal                                                                  215,601

               Base Period – SCA2                                                          63,978
               Option Period 1 – SCA2                                                      22,732
                Subtotal                                                                   86,710

               Base Period – Shaw E&I3/Other                                               635,305
               Option Period 1 – Shaw E&I3/Other                                         2,196,745
                Subtotal                                                                 2,832,050

               Total                                                                    $3,134,361
           1
            Contractor proprietary data omitted.
           2
            Service Contract Act.
           3
            Environmental and Infrastructure.


           We selected one job skill set classification, senior geologist/engineer, and
           compared the burdened labor rate that Shaw was awarded in the competitively
           sourced contract, the independent Government estimate for the OMB Circular
           No. A-76 competition, and the actual rate from an IDIQ task order that Shaw was
           awarded in September 2005. As shown in Table 8, Shaw included additional
           overhead at a rate of * 17 on the IDIQ task order, which resulted in a 115.3 percent
           difference between the actual rate in the IDIQ task order and the rate awarded for
           the senior geologist/engineer in the competitively sourced contract.




17
     This area of the report represents contractor proprietary data that was omitted.




                                                       31
                                   Table 8. 4.1.1 Senior Geologist/Engineer
                                     (24,100 Hours Proposed/Negotiated)

                                         Contract                   Independent
                                   Proposed/Negotiated          Government Estimate     Actual (Task Order 43)
                                    Rate                         Rate                     Rate
           Description            (Percent)1   Amount1         (Percent)2  Amount2      (Percent)1   Amount1
           Labor Rate
           Labor Burden3
            Subtotal

           Overhead
            Subtotal

           G & A4
            Subtotal

           Profit

           Fully Burdened Rate
           Difference from Negotiated (Percent)                              58.7                     115.3
           1
             Contractor proprietary data omitted.
           2
             Source selection information omitted.
           3
             Labor Burden (Fringes, Earned Leave, Overhead).
           4
             General and Administrative.


           Home Office Overhead. Shaw applied additional overhead to staff proposed in
           the IDIQ task orders that was not applied in the pricing proposal for the
           competitively sourced contract. Although Shaw did not allocate any cost for
           project administration to the IDIQ work in its proposal for the competitively
           sourced contract, Shaw included a percentage for home office overhead, ranging
           from * 18 to *18 for the base period and *18 to *18 for the first option period, on
           most of the proposals for IDIQ task orders. The unburdened labor rates and home
           office overhead rate applied in the IDIQ proposals are the only rates that vary
           significantly from the original contract rates. The additional overhead is the main
           reason that Shaw’s fully burdened labor rates were higher than originally
           proposed in the OMB Circular No. A-76 competition.

           We asked the Shaw IDIQ project manager why the IDIQ labor rates were so much
           higher than the contract labor rates. The IDIQ project manager explained that
           Shaw’s plan at the time the original IDIQ prices were proposed was to hire the
           adversely impacted Navy employees with the required skill sets working at the
           Navy Public Works Center, San Diego, to fill the positions and use that workforce
           to perform the core of the IDIQ task order workload. Shaw assumed the overhead
           would be lower for these personnel because they would be located at the client-
           provided Public Works Center facility. Shaw planned to augment this workforce
           with Shaw personnel presently assigned to other Shaw business units. However,

18
     This area of the report represents contractor proprietary data that was omitted.




                                                         32
           the IDIQ project manager stated that none of the adversely impacted Navy
           workers elected to interview for the positions and work for Shaw. Therefore,
           because Shaw was unable to hire the adversely impacted Navy personnel, Shaw
           personnel from other Shaw offices had to perform the work. These Shaw
           personnel from other business units incurred the home office overhead burden for
           Shaw Environmental and Infrastructure personnel, since they are not located full
           time at the Navy Public Works Center facility. In addition to using the personnel
           from other Shaw offices, Shaw had to hire subcontractors for the IDIQ
           requirements.

           Labor Rate Reasonableness. As part of the technical and price evaluation
           during the OMB Circular No. A-76 competition, the Price Evaluation Board
           evaluated Shaw’s price proposal. The independent Government estimate
           identified an average IDIQ labor rate of $* 19 with a labor burden of *19 , general
           and administrative fees of *19 , and profit of *19 , for an average fully burdened
           labor rate of $54.56. *19




           Labor Rate Comparison. The IDIQ award amounts of $1.8 million and
           $2.7 million for professional services during the base and first option period were
           based on Shaw providing the proposed *19 and *19 labor hours at the average
           competitively negotiated rates of $* 20 and $*20. However, with the average fully
           burdened labor rates of $*20 and $*20 the Navy would only receive *20
           (53 percent) and *20 (54.9 percent) of the labor hours required in the PWS for the
           base period and the first option period, respectively. We reviewed 41 IDIQ task
           order proposals available on Shaw’s Web portal and provided by the Facilities
           Engineering Acquisition Division. Of the 41 IDIQ task orders awarded to Shaw,
           the Navy received *20 IDIQ labor hours during the base period and *20 IDIQ labor
           hours in the first option period. Table 9 shows the additional costs the Navy paid
           by accepting the higher labor rates in the task order proposals versus the rates that
           Shaw was awarded under competitively negotiated contract.

19
     This area of the report represents source selection information that was omitted.
20
     This area of the report represents contractor proprietary data that was omitted.




                                                        33
                       Table 9. Overpayment From Higher Task Order Labor Rates

                                                             Hours1        Labor Rate1     Amount

                Base Period
                 IDIQ Task Orders                                                        $ 827,525
                 Competitively Sourced Contract                                            437,722
                  Overpayment                                                            $ 389,803

                First Option Period
                 IDIQ Task Orders                                                         2,306,871
                 Competitively Sourced Contract                                           1,265,270
                  Overpayment                                                            $1,041,601

                Total Overpayment                                                        $1,431,404
           1
               Contractor proprietary data omitted.


           While Shaw may have planned to hire the affected Navy Public Works Center
           employees, the Government should not have to incur the cost of Shaw being
           unable to hire personnel and locate them at Public Work Center facilities as they
           proposed. We calculate that the additional overhead Shaw applied to the IDIQ
           labor rates in the 6-month base period and first option year accounts for about half
           of the $1.4 million overpayment. Additionally, Shaw proposed average fully
           burdened labor rates of $* 21 , $*21, and $*21 for the * 22 IDIQ labor hours over the
           remaining three contract option periods. We calculate that if the Navy continues
           to accept Shaw’s higher IDIQ labor rates at an average of $*21 the Navy will
           spend $15.1 million for the IDIQ requirements over the next three option periods,
           about $6.6 million more than negotiated in the competitively sourced contract.
           The Price Evaluation Board determined that Shaw had built enough profit in its
           price proposal to cover any staffing understatements. Therefore, if Shaw is not
           able to perform as proposed, it should incur the additional costs, not the
           Government. The contracting officer should award task orders to Shaw using the
           labor categories and rates awarded under the competitively sourced contract or
           use other multiple award task order contracting procedures. Also the contracting
           officer should request a reimbursement from Shaw for the overpayment of
           $1.4 million resulting from awarding the IDIQ tasks orders for higher labor rates
           than awarded in the competitively sourced contract.


Price Negotiation Memorandums and Contract Funding
           The contracting officer did not prepare price negotiation memorandums for IDIQ
           task orders to document the principal elements of the negotiated agreement to
           determine fair and reasonable prices. Additionally, the contracting officer did not
           prepare contract modifications to transfer funds between different contract line
           items that exceeded the contract maximum.
21
     This area of the report represents contractor proprietary data that was omitted.
22
     This area of the report represents source selection information that was omitted.



                                                       34
            Contract Pricing and Negotiation. FAR Subpart 15.4, “Contract Pricing,”
            prescribes the cost and price negotiation policies and procedures for pricing
            negotiated prime contracts and contract modifications. The contracting officer is
            responsible for evaluating the reasonableness of the offered prices. The
            contracting officer’s analysis develops a negotiation position that permits the
            contracting officer and the offeror an opportunity to reach agreement on a fair and
            reasonable price. FAR Subpart 15.406-3, “Documenting the Negotiation,”
            requires the contracting officer to document in the contract file the principal
            elements of the negotiated agreement. The documentation (for example, price
            negotiation memorandum) shall include the purpose of the negotiation, a
            description of the acquisition, a summary of the contractor’s proposal, any field
            pricing assistance recommendations, including the reasons for any pertinent
            variances from them, the Government’s negotiation objective, the negotiated
            position, and documentation of fair and reasonable pricing.

            Price Negotiation Memorandums. The audit team requested price negotiation
            memorandums from the contracting officer several times, but none were provided.
            In October 2006, the contracting officer provided pre-negotiation memorandums,
            which provided information on the price, for 8 of the 64 IDIQ task orders. Many
            of these pre-negotiation memorandums contained inaccuracies and discrepancies,
            such as labor categories, and hours in many of the memorandums did not
            correspond with the labor categories and hours in the cost proposal for the subject
            task order. The contracting officer did not prepare price negotiation
            memorandums for any of the six of the IDIQ task orders and two task order
            modifications that we reviewed in detail. The task orders that we selected to
            review ranged in dollar value from $39,311 to $1,350,563. Additionally, although
            an independent Government estimate was prepared for most of the task orders we
            reviewed, each task order was awarded for the exact amount that Shaw proposed
            to perform the requirements. Accordingly, we could not determine how the
            contracting officer determined that the proposed prices were fair and reasonable,
            and whether the contracting officer negotiated any prices with Shaw before
            awarding the task order.

            IDIQ Requirements. The environmental services contract identified five
            different exhibit line item numbers (ELINs) associated with the IDIQ
            requirements. As previously discussed, the contractor was required to propose for
            the IDIQ requirements based on a specified number of hours for various
            professional skill sets identified in the PWS. These requirements were captured in
            ELIN 016, “Professional Services,” to provide consulting, professional services,
            project management, and technical support. ELIN 017, “Materials and Supplies,”
            was a “not to exceed” amount for materials and supplies associated with IDIQ
            requirements. 23 The remaining IDIQ line items, ELIN 018, “Environmental
            Laboratory Services;” ELIN 019, “Industrial and Oily Waste Water Treatment;”
            and ELIN 020, “Containerized Solid Waste Services,” were to provide services in
            the respective environmental service areas during non-scheduled working hours.
            The PWS required the contractor to propose on a minimal number of hours in
            these areas.


23
      The contract did not include an ELIN referencing subcontractor costs. According to the contract
     specialist, because the contract did not specify an ELIN for subcontracts, the contracting staff determined
     that subcontract costs would be awarded under ELIN 017, “Materials and Supplies.”




                                                        35
Awarded Value of IDIQ Task Orders. The environmental services contract
established a maximum amount for IDIQ requirements in the 6-month base period
of $3.83 million, and $5.79 million in the first option period. As shown in
Table 10, most of the awarded value was under ELIN 016 and ELIN 017, and the
amount awarded for the remaining line items was negligible. During the base
period, the contracting officer awarded Shaw 45 task orders and modified 6 of the
task orders for a total of $4.39 million, thereby exceeding the contract maximum
by $0.56 million. During the first option period, the contracting officer awarded
Shaw 19 task orders and 7 modifications of the task orders for a total of
$10.99 million, exceeding the contract maximum by $5.2 million.


    Table 10. IDIQ Award Amounts for the Base Period and Option Period 1

                                             Base Period
           ELIN              Contract Award             Task Order Award     Difference
           016                 $1,801,034                  $ 947,089       $ 853,945
           017                  2,000,000                   3,261,376       (1,261,376)
           Other*                  28,320                     185,934         (157,614)
            Total              $3,829,354                  $4,394,399      $ (565,045)

                                          Option Period 1
           ELIN              Contract Award             Task Order Award     Difference
           016                 $2,743,284                 $ 2,990,372      $ (247,088)
           017                  3,000,000                   7,282,648       (4,282,648)
           Other*                  42,504                     718,330         (675,826)
            Total              $5,785,788                 $10,991,350      $(5,205,562)
*
 Awarded under ELINs 018, 019, 020, or contract line item 0002.


As shown in Table 10, the contracting officer awarded IDIQ task orders for about
50 percent of the contract maximum for ELIN 016, “Professional Services,”
during the base period and exceeded the contract maximum by $0.2 million for
the first option period. The amount awarded for IDIQ task orders exceeded the
contract maximum for ELIN 017, “Materials and Supplies,” by about $1.3 million
and $4.3 million during the base period and the first option period, respectively.

The contract included clause 5252.216-9313, “Maximum Quantities,” from the
Navy Facilities Acquisition Supplement, that stated “the maximum shall not be
exceeded except as may be provided by formal modification to the contract.”
However, the contract specialist deducted the base period overrun from the funds
for the first option period without modifying the contract and did not prepare
contract modifications to move award amounts between ELINs or increase the
“not to exceed” amount of the materials and supplies. In addition, the contracting
officer did not prepare a justification and approval for exceeding the award
amounts for IDIQ requirements in the base period or the first option period.
When asked how additional cost overruns would be addressed, the contract
specialist stated that overruns would be taken from the next option period.

Some of the administrative matters involving the IDIQ task orders, such as the
preparation of price negotiation memorandums and the contract funding
documentation may have been neglected due to the minimal staff assigned to



                                              36
           administer this contract, as previously discussed. Nonetheless, the contracting
           officer is required by the FAR to document the principal elements of the
           negotiated agreement in the contract file and should ensure that price negotiation
           memorandums documenting the rationale for the awarded task order price are
           prepared at the conclusion of negotiations for all future IDIQ task orders awarded
           to Shaw. Also, the contracting officer should track contract dollars by specific
           line item, prepare a justification and approval if the award amounts are exceeded,
           and modify the contract in accordance with contract clause 5252.216-9313.


Conclusion
           Shaw won the OMB Circular No. A-76 public-private competition by about
           $4.1 million. Shaw’s contract price of $67.4 million included the average hourly,
           fully burdened, IDIQ labor rates ranging from $* 24 to $*24 for the life of the
           contract. If Shaw had proposed the labor rates that were used in the IDIQ task
           orders, Shaw’s contract price would have been $78.6 million. As shown in
           Table 11, if the contract price based on actual IDIQ labor rates was used in the
           cost comparison, the MEO would have won the competition by $7.1 million.


                          Table 11. Cost Comparison Adjustment for IDIQ Task Order
                                         Burdened Hourly Labor Rates

                                         Contract Labor Rates                          Task Order Labor Rates
            Performance               Total             Total                          Total          Total
               Period              Contract Cost   In-House Cost                    Contract Cost In-House Cost

                   1               $12,297,093         $13,218,870                  $14,691,334       $13,218,870
                   2                13,914,103          15,534,249                   16,160,703        15,534,249
                   3                14,083,084          15,733,250                   16,314,713        15,733,250
                   4                14,254,029          15,942,112                   16,442,031        15,942,112
                   5                14,425,791          16,151,391                   16,569,075        16,151,391
                  Total             68,974,100          76,579,872                   80,177,856        76,579,872

           Minimum
           Conversion
           Differential*              3,480,803                                        3,480,803

               Adjusted Total      $72,454,903         $76,579,872                  $83,658,659       $76,579,872
                Difference
                (in favor of)      $ 4,124,969                                                        $ 7,078,787
           *
               Established to ensure that the Government did not undertake a conversion for marginal estimated saving.
               Equal to the lesser of 10 percent of the in-house personnel costs or $10 million.




24
     This area of the report represents contractor proprietary information that was omitted.




                                                            37
    DoD relies on OMB Circular No. A-76 public-private competitions to promote
    cost savings and to increase the quality of service provided. The Navy estimated
    savings of $12.7 million over the life of the Shaw contract. Using the actual IDIQ
    labor rates, the estimated savings would be reduced to $1.5 million. Also, the
    MEO would have won the competition and the estimated savings would have
    been $5.1 million. With the higher labor rates for IDIQ requirements, Shaw has
    not been able to provide all of the labor hours they agreed to provide in the
    competitively sourced contract. Because the Navy is spending more money but
    receiving less of the IDIQ requirements proposed in the contract, the Navy will
    actually spend more on the execution of the environmental services contract than
    intended and not achieve the $12.7 million estimated savings.


Management Comments on the Finding and Audit Response
    Management Comments. The Director, Navy Strategic Sourcing provided
    comments on the Public Law 106-398 requirement that the Secretary of each
    Military Department provide enhanced training in service contracting. He stated
    that the Department of the Navy complies with the services contract training
    requirements for personnel who award and manage contracts for services.
    Specifically, he stated that the Department of the Navy has established an
    Acquisition Center of Excellence to award and administer competitive sourcing
    (OMB Circular No. A-76) contracts. He stated that the Center of Excellence
    personnel meet all training requirements of the Defense Acquisition Workforce
    Improvement Act and appropriate training on contracting for services. In
    addition, the Director, Navy Strategic Sourcing stated that the Navy continuously
    reviews and updates existing competitive sourcing training, which includes
    performance-based service acquisition, and that he will direct the training be
    revised to incorporate information about the Service Contracting Center of
    Excellence.

    Audit Response. The Acquisition Center of Excellence is not administering the
    contract for environmental services at the Navy Public Works Center, San Diego,
    California, which is a competitive sourcing contract. NAVFAC Southwest,
    Facilities Engineering Acquisition Division administers the environmental
    services contract. The Facilities Engineering Acquisition Division officer in
    charge and lead contracting officer have stated that they have not received
    assistance from a service contracting center of excellence and have received
    limited training in performance-based service acquisition and environmental
    services.




                                        38
Recommendations, Management Comments, and Audit
  Response
    B. We recommend that the Commanding Officer, Naval Facilities
    Engineering Command Southwest:

          1. Adequately staff the contract administration for contract
    N68711-03-D-4302.

    Management Comments. The Director, Program Analysis and Business
    Transformation concurred, stating that NAVFAC Southwest Public Works
    Department San Diego currently has 3.5 full-time equivalents, consisting of three
    contract specialists and a part-time operations assistant, dedicated to the contract.
    The command is currently hiring an additional contract specialist to bring the
    number of full-time equivalents assigned to the contract to 4.5.

    Audit Response. Management comments were responsive to the recommendation.

           2. Send contracting and technical support staff to appropriate training
    for performance-based service acquisition and environmental services.

    Management Comments. The Director, Program Analysis and Business
    Transformation concurred, stating that contracting and technical support staff will
    attend performance-based acquisition training designed to enhance skills in scoping
    objectives, developing performance work statements, and monitoring and
    documenting performance. Until this training is accomplished, appropriately
    trained staff will review contract language to ensure its use coincides with best
    practices for performance-based acquisitions. The contracting team will also attend
    general environmental technical training. In addition, NAVFAC Southwest will
    share lessons learned at upcoming sessions of the Command’s quarterly
    conferences, where participation by all Business and Support Lines is strongly
    encouraged.

    Audit Response. Management comments were responsive to the recommendation.

           3. Instruct the contracting officer to:

                  (a) Determine whether performance-based service acquisition is
    appropriate for the indefinite-delivery, indefinite-quantity requirements, or
    whether another method, such as time and materials or multiple task orders,
    should be used.

    Management Comments. The Director, Program Analysis and Business
    Transformation concurred, stating that NAVFAC Southwest will evaluate
    characteristics of new work requirements to determine suitability for a firm-fixed-
    price or time and materials task order, and will include performance-based service
    acquisition language and prescriptive language when necessary.

    Audit Response. Management comments were responsive to the recommendation.




                                         39
               (b) Include measurable performance standards with clear,
specific, and objective language in terms of quantity, timeliness, and quality
in the performance-based indefinite-delivery, indefinite-quantity task orders.

Management Comments. The Director, Program Analysis and Business
Transformation concurred, stating that as of February 12, 2007, measurable
performance standards are being incorporated into the indefinite-delivery,
indefinite-quantity task orders. The scope of each task order is reviewed to
determine measurable performance standards and NAVFAC Southwest will
ensure that performance standards are incorporated into indefinite-delivery,
indefinite-quantity work, as acceptable quality levels are further defined.

Audit Response. Management comments were responsive to the recommendation.

              (c) Award task orders to Shaw using the competitive rates
from the competitively sourced contract and document the principal
elements of the negotiated agreement.

Management Comments. The Director, Program Analysis and Business
Transformation concurred, stating that effective October 2006, competitive rates
from the competitively sourced contract are being used to award task orders. In
addition, pre-negotiation and post-negotiation memorandums are prepared and
included in the contract file to document the negotiation.

Audit Response. Management comments were responsive to the recommendation.

               (d) Track contract dollars by specific line item, prepare a
justification and approval if the award amounts are exceeded, and modify
the contract in accordance with contract clause 5252.216-9313.

Management Comments. The Director, Program Analysis and Business
Transformation concurred, stating that NAVFAC Southwest has developed a
process to track dollars per specific line item. If it becomes evident that a specific
line item threshold will be exceeded, a justification and approval will be executed
before awarding projects that would exceed the threshold and the contract will be
modified in accordance with contract clause 5252.216-9313.

Audit Response. Management comments were responsive to the recommendation.

               (e) Request a reimbursement of $1,431,404 from Shaw.

Management Comments. The Director, Program Analysis and Business
Transformation concurred, stating that NAVFAC Southwest has formally notified
Shaw that a $1,431,404 reimbursement is required.

Audit Response. Management comments were responsive to the recommendation.




                                     40
Appendix A. Scope and Methodology
We met with officials from the Under Secretary of Defense for Acquisition,
Technology, and Logistics, Office of Defense Procurement and Acquisition
Policy; the Deputy Assistant Secretary of the Navy for Acquisition Management;
and Navy and NAVFAC strategic sourcing officials. We interviewed and
obtained documentation regarding the environmental services contract from
personnel of the NAVFAC Southwest Facilities Engineering Acquisition Division
and the subject matter experts of the NAVFAC Southwest environmental services
residual organization. We also interviewed and obtained documentation from
Shaw personnel.

We reviewed the FAR and the Guidebook for Performance-Based Services
Acquisition in the Department of Defense for guidance on performance-based
service acquisition. We reviewed the contract, modifications, and IDIQ task
orders issued during the 6-month base period and the first 1-year option period.
We also reviewed Shaw’s technical proposals and cost estimates for IDIQ task
orders. We reviewed the performance assessment plan, monthly performance
reports from April through July 2005, performance assessment worksheets from
September 2005 through August 2006, performance assessment board reports
from March 2006 through September 2006, and the contractor performance
assessment report for the 6-month base period. We reviewed Shaw’s quality
control plans and quality control inspection reports from August 2005 through
September 2006.

We reviewed 64 IDIQ task orders awarded and modifications issued as of
September 30, 2006, obtained from the NAVFAC Southwest Facilities
Engineering Acquisition Division and the Shaw environmental services Internet
portal. To determine the average hourly labor rates, we reviewed the 41 cost
proposals that were available from the NAVFAC Southwest Facilities
Engineering Acquisition Division as of April 2006 and the Shaw portal as of
October 2006. We calculated the average hourly labor rate for the base and first
option period and used that rate to determine the overpayment made by the Navy
using the higher rates versus the competitively negotiated labor rates and to
determine the estimated additional overpayment the Navy will make over the
remaining 3 contract option years if they continue to use the higher labor rates to
acquire all of the IDIQ hours in the contract.

We performed this audit from September 2005 through February 2007 in
accordance with generally accepted government auditing standards.

Use of Computer-Processed Data. We used computer-processed cost
comparison data calculated by the win.COMPARE2 software program to identify
the appropriate number of contract administration positions and to recalculate the
cost comparison using Shaw’s actual IDIQ labor rates. According to DoD IG
Report No. D-2001-127, “Data Reliability Assessment Review of
win.COMPARE2 Software,” May 23, 2001, the general and application controls
over the win.COMPARE2 software were adequate. In addition, through software
testing, the DoD IG determined that computations and reports generated by
win.COMPARE2 were sufficiently reliable, accurate, and in accordance with the




                                     41
OMB Circular No. A-76 Revised Supplemental Handbook and the DoD A-76
Costing Manual. Nothing came to our attention in this review that caused us to
doubt the reliability of the computer-processed data.

Government Accountability Office High-Risk Area. GAO has identified
several high-risk areas in DoD. This report provides coverage of the Defense
Infrastructure Management and Defense Contract Management high-risk areas.




                                   42
Appendix B. Prior Coverage
    During the last 5 years, GAO, DoD IG, and the Air Force Audit Agency (AFAA)
    have issued nine reports discussing performance-based services acquisition.
    Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports. Unrestricted AFAA reports can be accessed
    at https://www.afaa.hq.af.mil/afck/plansreports/reports.shtml.


GAO
    GAO Report No. GAO-07-20, “Tailored Approach Needed to Improve Service
    Acquisition Outcomes,” November 9, 2006

    GAO Report No. GAO-05-526, “Better Contracting Practices Needed at Call
    Centers,” June 30, 2005

    GAO Report No. GAO-04-380, “Coast Guard’s Deepwater Program Needs
    Increased Attention to Management and Contractor Oversight,” March 9, 2004

    GAO Report No. GAO-02-1049, “Guidance Needed for Using Performance-
    Based Service Contracting,” September 23, 2002


DoD IG
    DoD IG Report No. D-2006-036, “Public-Private Competition for Environmental
    Services at the Navy Public Works Center, San Diego, California,” December 8,
    2005

    DoD IG Report No. D-2006-010, “Contract Surveillance for Service Contracts,”
    October 28, 2005

    DoD IG Report No. D-2004-015, “Contracts for Professional, Administrative, and
    Management Support Services,” October 30, 2003

    DoD IG Report No. D-2003-016, “Material Distribution Services Contract at the
    Defense Distribution Depot Warner Robins, Georgia,” October 30, 2002


Air Force
    AFAA Report No. F2005-0003-FC3000, “Performance-Based Services
    Acquisition Management,” January 5, 2005




                                      43
Appendix C. Comparison of Shaw Quality
            Control Plan and PWS Performance
            Requirements

                                                                Performance Standard/Acceptable Quality
              Performance Objective                             Level (AQL) (Addressed in Quality Control
                                                              Plan/Addressed in Monthly Performance Report)

                                  3.1 Environmental Laboratory Services

 The Service Provider shall provide environmental
 laboratory services: volatile organics, semi-volatile    Comply with applicable Federal and State laws and
 organics, metals, general chemistry, bacteriology,       regulations. (No/No)
 radiological, and aquatic toxicity bioassay.
                                                          All records, reports, and data are provided within
                                                          the specified time frames. (Questionable/No)
 The Service Provider shall develop and maintain a
 set of standard operating procedures (SOPs) for all
 activities identified as part of performing              SOPs are developed within 60 days from notice to
 Environmental Laboratory Services within 60 days         proceed. (Yes/Yes)
 from the notice to proceed. Upon request the
 Service Provider shall provide copies of the SOPs.
                               3.1.1 Sampling and Field Analytical Services
                                                          Sample collection is provided within 2 working
 The Service Provider shall provide sampling
                                                          days of the time of receipt of requirement or as
 services within 2 workings days of the request by
                                                          agreed to with the Client 95 percent of the time.
 the client for service.
                                                          (Questionable/No)
 The Service Provider shall provide sampling
 services including, but not limited to, sampling for
 regulatory compliance, installation restoration (IR) Sample is collected within 15 minutes of scheduled
 (Comprehensive Environmental Response,                 time for sampling service 95 percent of the time.
 Compensation, and Liability Act) volatile organics, (Yes/Yes)
 semi-volatile organics, metals, general chemistry,
 bacteriology, and aquatic toxicity bioassay.
 The Service Provider shall provide all necessary
                                                        Field analytical services are provided within
 and related sample materials, sample collection
                                                        2 working days of the time of receipt of
 equipment, preservation material, personal
                                                        requirement or as agreed to with the Client
 protective equipment, and transportation of the
                                                        95 percent of the time. (No/No)
 samples to an approved laboratory.
 The Service Provider shall provide and conduct
 field analytical services including, but not limited   Service is provided at the collections site within
 to, pH, residual and total chlorine, temperature,      15 minutes of scheduled time 95 percent of the
 conductivity, ferrous iron testing, and dissolved      time. (No/No)
 oxygen and turbidity.
Note: See the list of acronyms at the end of the appendix.




                                                         44
                                                             Performance Standard/Acceptable Quality
                                                             Level (AQL) (Addressed in Quality Control
             Performance Objective
                                                              Plan/Addressed in Monthly Performance
                                                                              Report)
                                         3.1.2 Analytical Services

The Service Provider shall provide analytical
services and associated reports in the categories of,    All samples are analyzed within required holding
but not limited to, process samples (screening),         times 98 percent of the time. (Yes/Yes)
compliance, IR, and microbiological.
The Service Provider shall provide specific report
formats or electronic formats in the format
specified by the client or Federal and State
regulatory agencies.
                                                      Process reports for samples submitted within the
Process reports for samples submitted within the
                                                      first 2 hours of the scheduled laboratory hours
first 2 hours of the scheduled laboratory hours shall
                                                      provided the same day; samples submitted after
be provided the same day; samples submitted after
                                                      that period shall be provided the next working day.
that period shall be provided the next working day.
                                                      (Questionable/Yes)
                                                      Compliance reports are provided within 10
Compliance reports shall be provided within
                                                      working days from the date of sample receipt.
10 working days from the date of sample receipt.
                                                      (Questionable/No)
                                                      IR reports are provided within 30 working days
IR reports shall be provided within 30 working
                                                      from the date of receipt of the last samples with the
days from the date of receipt of the last samples
                                                      exceptions that asbestos reports are provided
with the exceptions that asbestos reports shall be
                                                      2 working days after sample submission.
provided 2 working days after sample submission.
                                                      (Questionable/No)
Microbiology reports shall be provided within         Microbiology reports are provided within
10 working days of sample submission with the         2 working days of sample submission with the
exception of drinking water microbiology reports,     exception of drinking water microbiology reports,
which shall be submitted 7 working days from          which are provided 7 working days from sample
sample submission.                                    submission. (Questionable/No)
                     3.1.3 Client Guide for Sample Collection and Testing Services

The Service Provider shall develop, maintain, and
update a client guide for Environmental Test             Guide is available to fill client requests. (Yes/Yes)
Methods and Sampling Services.
The Service Provider shall provide within 30 days
of award a format for the guide and submit it to the     All specifications for the manual are developed
designated Government representative (DGR) for           within 30 days from notice to proceed. (No/No)
review and comment.
Within 30 days of receipt of comments, the Service
                                                         The manual is completed within 30 days of receipt
Provider shall provide a completed draft guide to
                                                         of comment. (No/No)
the DGR for approval.
                                                      The manual is maintained and updated as changes
Service Provider shall update the guide within
                                                      in requirements are identified, or within 30 days for
30 days of regulatory change.
                                                      a regulatory change. (No/No)
Note: See the list of acronyms at the end of the appendix.




                                                        45
                                                              Performance Standard/Acceptable Quality
              Performance Objective                           Level (AQL) (Addressed in Quality Control
                                                            Plan/Addressed in Monthly Performance Report)

                        3.2 Industrial and Oily Waste Water Treatment Services

The Service Provider shall collect, manage, store,      Activities conducted in accordance with applicable
treat, and dispose of or recycle hazardous wastes,      laws, regulations, and Navy policy.
industrial waste, and oily water.                       (Questionable/Questionable)
                                                        Personnel have appropriate training and
                                                        certifications to conduct activities. (Yes/Yes)
The Service Provider shall develop and maintain a
set of SOPs for all activities identified as part of
performing these services within 60 days from the       SOP developed for all activities within 60 days of
notice to proceed. Upon request the Service             notice to proceed. (No/Yes)
Provider shall provide copies of the SOPs to the
DGR.
The Service Provider shall maintain and operate
                                                        All activities are conducted in compliance with
treatment facilities, which include all ancillary
                                                        applicable laws, regulations, permit conditions, and
piping, lift stations and emergency generators
                                                        Navy policy. (Yes/Yes)
associated with the treatment facilities.
                                                        Required records are maintained for operations
                                                        personnel and transport. (Yes/Yes)
The Service Provider shall obtain and maintain
ISO 14001 certification as part of the
Environmental Management System (EMS)                   ISO 140001 obtained within first performance
covering industrial and oily waste water treatment      period. (Yes/No)
services during the first performance period of the
contract.
                       3.2.1 Provide Industrial and Oily Waste Water Collection
The Service Provider shall provide scheduling and
collection services for industrial and oily waste
                                                        Industrial and oily waste water is scheduled and
water and general industrial waste from the point of
                                                        collected in accordance with customer requests and
generation to the appropriately permitted
                                                        requirements. (Yes/Yes)
Government facility or treatment storage and/or
disposal facility (TSDF).
            3.2.1.1 Industrial and Oily Waste Water Scheduling and Collection by Pipeline

The Service Provider shall provide industrial and       Industrial and oily waste water is scheduled and
oily waste water scheduling and collection by           collected in accordance with customer
pipeline.                                               requirements 98 percent of the time. (Yes/Yes)
                                                        Collection is conducted in accordance with 33
                                                        Code of Federal Regulations (CFR) 153.310.
                                                        (Yes/Yes)
The Service Provider shall develop an SOP for
scheduling and collection of industrial and oily        SOP is developed within 60 days from notice to
waster water by pipeline within 60 days from the        proceed. (Yes/Yes)
notice to proceed.
Note: See the list of acronyms at the end of the appendix.




                                                       46
                                                             Performance Standard/Acceptable Quality
              Performance Objective                          Level (AQL) (Addressed in Quality Control
                                                           Plan/Addressed in Monthly Performance Report)
The Service Provider shall provide training to          Training is scheduled and provided to shore and
shore and ship commands as necessary to ensure          ship commands utilizing the service 98 percent of
compliance with applicable regulations and SOP.         the time. (Yes/Yes)

        3.2.1.2 Industrial and Oily Waste Water Scheduling and Collection by Tanker Truck

The Service Provider shall provide industrial and       Industrial and oily waste water is scheduled and
oily waster water scheduling and collection by          collected in accordance with customer
mobile tanks (that is, tanker truck, bowsers).          requirements 98 percent of the time. (Yes/Yes)
                                                        Documentation and testing confirm conformance
                                                        with permit conditions and applicable laws and
                                                        regulations. (Yes/Yes)

          3.2.1.3 Industrial and Oily Waste Water Scheduling and Collection by Container

The Service Provider shall provide industrial and       Industrial oily waste water is scheduled and
oily waste water scheduling and collection by           collected in accordance with customer
container.                                              requirements 98 percent of the time. (Yes/Yes)

              3.2.2 Provide Industrial and Oily Waste Water Treatment Service, Storage

                                                        Industrial and oily waste water is stored in
The Service Provider shall provide industrial oily
                                                        accordance with applicable laws, regulations, and
waste water storage.
                                                        permit conditions. (Yes/Yes)

      3.2.3 Provide Waste Treatment for Industrial and Oily Waste Water Treatment Services
The Service Provider shall use the appropriate
tanks and treatment technology to treat collected
                                                        Treated waste meets permit discharge
and stored hazardous wastes and industrial and oily
                                                        requirements. (Yes/Yes)
waste waters to applicable discharge standards as
specified in the facility permits.
                       3.2.4 Provide Disposal of Industrial and Oily Waste Water
The Service Provider shall provide disposal of          Disposal is in compliance with all applicable
industrial and oily waste water.                        permits, laws, and regulations. (Questionable/Yes)
                                                        All data and documentation will be performed
                                                        within 5 days. (Yes/Yes)
                                                        Recommendations must be submitted to the DGR
                                                        no later than 30 days prior to the allowable storage
                                                        time. (No/No)
Note: See the list of acronyms at the end of the appendix.




                                                      47
                                                             Performance Standard/Acceptable Quality
              Performance Objective                          Level (AQL) (Addressed in Quality Control
                                                           Plan/Addressed in Monthly Performance Report)

          3.2.5 Operate and Monitor Industrial and Oily Waste Water Treatment Facilities

The Service Provider shall operate and monitor          Facilities are in operation and provide 100 percent
treatment facilities, equipment, lift stations, and     of the service 95 percent of the time. One hundred
pipelines in compliance with applicable laws,           percent of the service is defined as all systems that
regulations, media permits, and hazardous waste         are necessary to provide service to the customers
facility permit conditions.                             are available for service. (Yes/Yes)
The Service Provider shall respond to routine
service requests/alarms. Routine alarm actions must
be implemented within 5 calendar days from the
time alarm is received.
The Service Provider shall respond to urgent
service requests/alarms. Urgent alarm actions must
be implemented within 4 hours of the time the
alarm is received.
The Service Provider shall respond to emergency
service requests/alarms. Emergency alarm actions
implemented immediately but no later than 2 hours
from the time the alarm is received.
                 3.2.6 Maintain Industrial and Oily Waste Water Treatment Facilities
The Service Provider shall maintain all treatment
facilities, ancillary equipment, lift stations, and
                                                        Treatment facilities are maintained according to
pipelines. Maintenance shall include, but is not
                                                        Government provided or approved preventative
limited to, painting, repair, and preventative
                                                        maintenance schedule. (Questionable/Yes)
maintenance of all tanks, ancillary equipment,
pipelines, and other associated monitoring systems.
                                                        Equipment maintained in accordance with
                                                        manufacturer recommendations, Public Work
                                                        Center standards, and applicable permit
                                                        requirements. (Questionable/Yes)
The Service Provider shall maintain the industrial
                                                        Preventative maintenance schedule is entered and
and oily waste water treatment facilities with the
                                                        maintained in MAXIMO, an automated, on-line,
preventative maintenance schedule for treatment
                                                        maintenance management system. (Yes/Yes)
facilities.
The Service Provider shall provide routine repair       Routine repair action is initiated within 72 hours
action initiated within 72 hours.                       98 percent of the time. (Yes/Yes)
The Service Provider shall provide urgent repair        Urgent repair actions are initiated within 24 hours
actions initiated within 24 hours.                      99 percent of the time. (Yes/Yes)
The Service Provider shall provide emergency            Emergency repair action is initiated immediately.
repair action initiated immediately.                    (Yes/Yes)
Note: See the list of acronyms at the end of the appendix.




                                                      48
                                                           Performance Standard/Acceptable Quality
             Performance Objective                         Level (AQL) (Addressed in Quality Control
                                                         Plan/Addressed in Monthly Performance Report)

                                 3.3 Containerized Solid Waste Services
The Service Provider shall provide containerized
                                                        All activities are conducted in accordance with
solid waste services (CSWS) services for Naval
                                                        laws, specified permit conditions, and regulations.
facilities located principally in the San Diego
                                                        (No/No)
Metro area and San Clemente Island (SCI).
The Service Provider shall develop and maintain
SOPs for all activities identified as part of
performing CSWS services within 60 days from the SOPs are submitted to DGR within 60 days from
notice to proceed. Upon request the Service             notice to proceed. (No/No)
Provider shall provide copies of the SOPs to the
DGR.
The Service Provider shall obtain and maintain
ISO 14001 certification as part of the EMS              ISO 140001 certification is obtained within first
covering this activity during the first performance     performance period. (No/No)
period.
     3.3.1 Collection and Transport of Containerized Hazardous and Non-Hazardous Solid Waste,
               Asbestos, PCB, Universal, and Designated Waste at the Generator Location
The Service Provider shall collect, segregate,
characterize, prepare appropriate shipping and
billing documents, and transport containerized          Containerized waste is scheduled and collected in
hazardous and non-hazardous solid waste, asbestos, accordance with customer requirements within 15
polychlorinated biphenyls (PCB), universal and          minutes of scheduled included in JC-1801020-004
designated waste from the generator location to a       98 percent of the time. (Yes/Yes)
Government-owned TSDF or an appropriate TSDF
selected by the Service Provider.
    3.3.1.1 Collection and Transport of Containerized Hazardous and Non-Hazardous Solid Waste,
              Asbestos, PCB, Universal, and Designated Waste at the SCI generator location
The Service Provider shall coordinate with
hazardous waste coordinators at SCI to provide the
personnel to ensure proper segregation and              Service provider personnel are on site on the day
characterization of wastes collected for shipment       scheduled 98 percent of the time. (Yes/Yes)
from SCI and prepare appropriate manifests,
shipping, and billing documents.
The Service Provider shall coordinate the barge
transport of the containerized hazardous and non-       All required documents necessary for shipment are
hazardous solid waste, asbestos, PCB, universal,        complete, correct, and provided to applicable
and designated waste from SCI to the Naval Station agencies, transporter, TSDF. (Yes/Yes)
barge pier.
The Service Provider shall unload the barge of the
items identified by the shipping documents and
                                                        Barged wastes are properly unloaded and managed.
transport them to the Government-owned TSDF or
                                                        (Yes/Yes)
a appropriate facility selected by the Service
Provider.
Note: See the list of acronyms at the end of the appendix.




                                                    49
                                                              Performance Standard/Acceptable Quality
              Performance Objective                           Level (AQL) (Addressed in Quality Control
                                                            Plan/Addressed in Monthly Performance Report)
                                    3.3.2 Containerized Waste Storage
The Service Provider shall provide management
and storage of hazardous and non-hazardous solid
waste, asbestos, PCB, universal, and designated         Containerized waste is stored in accordance with
waste in accordance with permit conditions, laws,       applicable permit conditions, laws, and regulations.
and regulations in Resource Conservation and            (Yes/Yes)
Recovery Act (RCRA)-permitted facilities or less
than "90-day" accumulation facilities as applicable.

            3.3.2.1 Containerized Waste Sorting, Segregation, and Consolidation (Bulking)

The Service Provider shall separate, determine
compatibility, consolidate (bulking), and
                                                        All waste collected is processed (sorted,
containerize hazardous and non-hazardous solid
                                                        segregated, consolidated) within 2 working days of
waste, and designated waste as applicable for
                                                        receipt during normal working hours 99 percent of
storage, Department of Transportation (DOT)
                                                        the time. (Yes/Yes)
transportation, and disposal within 2 working days
of receipt at the facility.
                                      3.3.2.2 Lab Pack Preparation

The Service Provider shall separate, determine
                                                        In accordance with laws and regulatory
compatibility, and lab pack hazardous waste for
                                                        requirements. (No/Yes)
storage and DOT transportation.

                                  3.3.3 Disposal of Containerized Waste

The Service Provider shall dispose of containerized
                                                        Disposal is in compliance with all applicable laws
hazardous and non-hazardous solid waste, asbestos,
                                                        and regulations. (Questionable/Yes)
PCB, universal, and designated waste.
The Service Provider shall implement procedures
to ensure that the storage facilities maintain
sufficient capacity to handle surge requirements
and that the truck traffic is minimized through the
various communities in the San Diego Metro area.
The Service Provider shall research, document, and
recommend to the DGR the most economical
                                                        Recommendations must be submitted to the DGR
disposal option available to provide disposal
                                                        no later than 30 days prior to the allowable storage
services. Recommendations must be submitted to
                                                        time. (Questionable/No)
the DGR no later than 30 days prior to the
allowable storage time.
Upon DGR approval, the Service Provider shall
coordinate and document the disposal. All data and All data and documentation for disposal is
documentation for the disposal shall be completed       performed within 5 days. (No/No)
within 5 days of disposal activities.
Note: See the list of acronyms at the end of the appendix.




                                                       50
                                                             Performance Standard/Acceptable Quality
              Performance Objective                          Level (AQL) (Addressed in Quality Control
                                                           Plan/Addressed in Monthly Performance Report)
                                               3.3.4 Recycling
The Service Provider shall provide recycling           All recyclable material is recycled 98 percent of the
services.                                              time. (Yes/Yes)
                                         3.3.4.1 Textile Recycling
                                                       Recycled textiles are clean and available within 5
The Service Provider shall sort, clean, and process
                                                       working days of receipt 98 percent of the time.
textiles received from generators.
                                                       (Yes/Yes)
                                   3.3.4.2 Lead Acid Battery Recycling

The Service Provider shall recycle lead acid           All recyclable material is recycled 98 percent of the
batteries received from generators.                    time. (Yes/Yes)

                                      3.3.4.3 Oil and Fuel Recycling

The Service Provider shall recycle oil and fuel        All recyclable material is recycled 98 percent of the
received from generators.                              time. (Yes/Yes)

                                    3.3.4.4 Toner Cartridge Recycling
The Service Provider shall recycle toner cartridges    All recyclable material is recycled 98 percent of the
from generators.                                       time. (Yes/Yes)
                         3.3.4.5 Empty Container Recycling and Management
The Service Provider shall provide empty container     All recyclable material is recycled or reutilized
recycling and management.                              98 percent of the time. (Yes/Yes)
                                   3.3.4.6 Fluorescent Light Recycling
The Service Provider shall recycle fluorescent         All recyclable material is recycled 98 percent of the
lights received from the generators.                   time. (Yes/Yes)
                                      3.3.5 Spill Clean-Up Services
The Service Provider shall provide personnel
trained in accordance with 29 CFR 1910 available
during scheduled working hours (07:30 to 16:00          Dispatched personnel shall be at spill site with the
Monday through Friday) to respond to and perform        necessary materials and equipment within 1 hour of
clean-up of hazardous and non-hazardous waste           the request for service during scheduled working
and material releases, excluding sewage releases at     hours 99 percent of the time. (Yes/Yes)
Naval facilities located in the San Diego Metro
area.
The Service Provider shall provide personnel,
containers, and equipment to perform spill clean-up
services of unauthorized releases on land at Naval
facilities located in the San Diego Metro area
within 1 hour of the request for services from the
DGR.
Note: See the list of acronyms at the end of the appendix.




                                                      51
                                                                Performance Standard/Acceptable Quality
              Performance Objective                             Level (AQL) (Addressed in Quality Control
                                                              Plan/Addressed in Monthly Performance Report)
The Service Provider shall complete spill reports         Reports are submitted within 2 working days of
within 2 working days of release occurrence.              release clean-up. (No/No)
The Service Provider shall maintain release clean
up reports on all releases the Service Provider is
requested to respond to in the format specified by
the DGR.

                          3.3.6 Maintain Containerized Solid Waste Equipment

The Service Provider shall service, maintain, and         Equipment is available and operable 90 percent of
repair Government-furnished equipment.                    the time. (Yes/Yes)


        3.3.7 EPA ID Number Management, Manifest, and Land Disposal Restriction Services

The Service Provider shall respond to requests by
                                                          Arrive at the generator site with 15 minutes of time
the DGR for information pertaining to the Navy
                                                          scheduled in accordance with customer
facility Environmental Protection Agency
                                                          requirements 98 percent of the time. (No/No)
identification numbers in section JC 1801020-005.
The Service Provider in the capacity as the
Government's agent shall provide hazardous waste
characterization verification, profile review,            All documents are complete and accurate.
manifest, and land disposal restriction certifications    (Yes/Yes)
services for Government hazardous waste shipped
directly from Naval facilities.
                                     3.3.8 PCB Program Management
The Service Provider shall provide PCB program
management, which includes, but is not limited to,
                                                          Complies with all applicable laws and regulations.
maintaining annual records, document records
                                                          (Yes/Yes)
archive, and developing an annual PCB document
log in accordance with 40 CFR 761.180.
                                                          Records are maintained and reports submitted
                                                          within specified timelines. (No/No)

                                   3.4 Operate Bio-Remediation Facility

The Service Provider shall operate, provide all
maintenance and materials and manage the disposal
of remediated soils for the Naval Air Station, North
Island, bio-remediation facility in accordance with,
                                                        Complies with all applicable laws, regulations, and
but not limited to, Clean Water Act, Clean Air Act,
                                                        permit conditions. (No/Yes)
County of San Diego Air Pollution Control District
rules, Regional Water Control Board Order R9-
2002-0040 waste disposal requirements and
applicable permits.
Note: See the list of acronyms at the end of the appendix.




                                                         52
                                                              Performance Standard/Acceptable Quality
               Performance Objective                          Level (AQL) (Addressed in Quality Control
                                                            Plan/Addressed in Monthly Performance Report)
The Service Provider shall prepare and submit all
required reports to the DGR 30 days prior to the
required regulatory submittal date for review and           Records are maintained and reports submitted
comment. Upon receiving DGR approval, the Service           within specified timelines. (Yes/Questionable)
Provider shall sign and submit the required reports to
the appropriate agency.
The Service Provider shall develop and maintain SOP
for all activities identified as part of operating a bio-
remediation facility within 60 days of the notice to
proceed.
                    3.6 Pollution Prevention Plan for Navy Medical Center San Diego

                                                            The P2 plan is completed as scheduled and
The Service Provider shall provide Pollution
                                                            conforms to regulatory requirements.
Prevention (P2) Plan Modification or update services.
                                                            (No/Questionable)
 3.7 Commander Navy Region Southwest Emergency Planning and Community Right-to-Know Act
                                       311, 312, and 313 Reporting
The Service Provider shall perform all activities
necessary to provide Emergency Planning and
Community Right-to-Know Act (EPCRA) 311, 312,
and 313 services.


The Service Provider shall provide to the DGR the
appropriate EPCRA report for the listed Naval               The EPCRA reports are completed on or before the
facilities for review and comment 14 days prior to the      regulatory submittal date. Reports are complete
regulatory report submittal date. Upon approval of the      and appropriate copies are provided to the DGR.
DGR, the Service Provider shall submit the report to        (Yes/Questionable)
the agency and provide a copy to the DGR.


EPCRA services shall be in accordance with
40 CFR 372 and 40 CFR 370, Executive Order 12856,
and Office of the Chief of Naval Operations
Instructions (OPNAVINST) 5090.1b CH-2, Chapter
4-5 and additional annual updates to the
OPNAVINST and DoD and or Navy specific
guidance and San Diego County local hazardous
material inventory requirements.
                                     3.9 PWC Master AUL List Service
The Service Provider shall provide management and
                                                         Emergency updates are made to the AUL database
training and maintain and update the Navy Public
                                                         list within 1 working day of the request 98 percent
Works Center San Diego Authorized Use List (AUL)
                                                         of the time. (Questionable/Yes)
database per Public Work Center Instruction 41103.
Note: See the list of acronyms at the end of the appendix.




                                                      53
                                                           Performance Standard/Acceptable Quality
              Performance Objective                        Level (AQL) (Addressed in Quality Control
                                                         Plan/Addressed in Monthly Performance Report)
                                                         Rush updates are made to the AUL database list
                                                         within 2 working days of the request 98 percent of
                                                         the time. (Questionable/Yes)
                                                         Routine updates are made to the AUL database list
                                                         within 5 working days of the request 98 percent of
                                                         the time. (Questionable/Yes)

                3.11 Storm Water Monitoring, Sampling, and Reporting for the NMCSD

The Service Provider shall perform all activities
                                                         Wastes generated are properly disposed of and
necessary to provide storm water monitoring,
                                                         sampling schedules are met 99 percent of the time.
sampling, and reporting for the Naval Medical Center
                                                         (Yes/No)
San Diego (NMCSD).
The Service Provider shall provide required reports to
the NMCSD DGR for review and comment 30 days
prior to the report deadline. Upon approval by the       Sampling is conducted in accordance with
DGR, the Service Provider shall submit the report to     approved plans and Stormwater 846. (Yes/Yes)
the appropriate regulatory agency and provide copies
of the report and all relevant documents to the DGR.
The Service Provider shall provide storm water
monitoring, sampling, and reporting for the NMCSD
in accordance with the Stormwater 846, Clean Water
Act, OPNAVINST 5090.1b, and Naval Base San
Diego National Pollutant Discharge Elimination
Permit CA0109169.


        Acronyms

        AQL                     Acceptable Quality Level
        AUL                     Authorized Use List
        CFR                     Code of Federal Regulations
        CSWS                    Containerized Solid Waste Services
        DGR                     Designated Government Representative
        DOT                     Department of Transportation
        EMS                     Environmental Management System
        EPCRA                   Emergency Planning and Community Right-to-Know Act
        IR                      Installation Restoration
        NMSCD                   Naval Medical Center San Diego
        OPNAVINST               Office of the Chief of Naval Operations Instruction
        P2                      Pollution Prevention
        PCB                     Polychlorinated Biphenyls
        RCRA                    Resource Conservation and Recovery Act
        SCI                     San Clemente Island
        SOP                     Standard Operating Procedure
        TSDF                    Treatment Storage and/or Disposal Facility




                                                    54
     Appendix D. Professional Services Labor Rates in the Contract for the
                  First Option Period

                                                                                               Labor Burden1       Overhead        G&A   2
                                                                                                                                             Profit   2
                                                                                                                                                                  Fully
                                                                 Labor    Labor                                                                           Total Burdened
                      Description                                Hours3   Rate 2   Total Cost2 Amount2 Percent2 Amount2 Percent2                          Price   Rate 2

     4.11 - Principal Geologist/
             Engineer                   Exempt                                                                                                        $ 100,153
     4.1.1 - Senior Geologist/Engineer Exempt                                                                                                           985,824
     4.1.1 - Staff Geologist/Engineer   Exempt                                                                                                          241,113
     4.1.2 - Quality Assurance Manager Exempt                                                                                                            98,897
     4.1.3 - Physical Science Technician SCA                                                                                                            376,247
     4.1.4 - Graphics Specialist         SCA                                                                                                            125,724
     4.1.5 - Database Manager            SCA                                                                                                            124,756
     4.1.6 - Senior Environmental
              Protection Specialist      SCA                                                                                                               64,960
     4.1.6 - Environmental Protection
55




              Specialist                 SCA                                                                                                              296,258
     4.1.6 - Associate Environmental
              Protection Specialist      SCA                                                                                                               44,298
     4.1.7 -SCAPS Data Acquisition
              Specialist                Exempt                                                                                                             73,630
     4.1.7 - SCAPS Operations Manager Exempt                                                                                                              211,433

                                                                                                                                                      $2,743,293

     G&A General and Administrative
     SCA   Service Contract Act
     SCAPS Site Characterization and Analysis Penetrometer System

     1
         Labor Burden includes fringes, earned leave, and overhead.
     2
         Contractor proprietary data omitted.
     3
         Source selection information omitted.
      Appendix E. IDIQ Task Order Labor Rates for the Base Period

     Professional Services - Exempt
                                                                                                             1            1
            Task                         Labor                       Fringe             Overhead       G&A       Profit         Total    Burdened
         Order No.       Hours 1    Rate 1    Cost       1
                                                             Percent 1
                                                                         Amount1    Percent1 Amount1                           Amount     Rate 1

             4                                                                                                                 $   568
             5                                                                                                                   9,085
            5(2)                                                                                                                 1,234
            5(3)                                                                                                                 1,100
             6                                                                                                                   2,971
             7                                                                                                                  13,182
             8                                                                                                                     517
             24                                                                                                                  1,490
             29                                                                                                                    705
             31                                                                                                                  1,894
56




             32                                                                                                                  1,478
             33                                                                                                                  6,445
             34                                                                                                                  1,569
             35                                                                                                                 13,168
             37                                                                                                                  1,365
             42                                                                                                                  6,337
             43                                                                                                                 53,440
             44                                                                                                                 10,670
             45                                                                                                                  1,008
          Subtotal                                                                                                            $128,226

     Note: See the list of acronyms and the footnotes at the end of the appendix.
     Professional Services - SCA
                                                                                                                                                1              1
            Task                                      Labor                        Fringe                   Overhead                   G&A            Profit         Total    Burdened
         Order No.       Hours 1                 Rate 1    Cost       1
                                                                           Percent   1
                                                                                       Amount1          Percent1 Amount1                                            Amount     Rate 1

                 5                                                                                                                                                  $ 1,989
                5(2)                                                                                                                                                  1,132
                 6                                                                                                                                                    1,214
                 7                                                                                                                                                    3,200
                 31                                                                                                                                                   1,074
                 35                                                                                                                                                   2,269
                 43                                                                                                                                                  46,592
                 44                                                                                                                                                   5,523
                 45                                                                                                                                                     985
              Subtotal                                                                                                                                              $63,978

     Professional Services - Shaw E&I (includes others2)
            5(2)                                                                                                                                                      2,279
57




            5(3)                                                                                                                                                      8,616
             24                                                                                                                                                         286
             30                                                                                                                                                     241,801
             31                                                                                                                                                       9,004
             32                                                                                                                                                         531
             33                                                                                                                                                       4,296
             34                                                                                                                                                      13,615
             35                                                                                                                                                     104,759
             37                                                                                                                                                         818
             41                                                                                                                                                      98,614
             42                                                                                                                                                       1,410
             43                                                                                                                                                      85,727
             44                                                                                                                                                      60,296
             45                                                                                                                                                       3,253
          Subtotal                                                                                                                                                 $635,305

                Total                                                                                                                                              $827,510

     E&I          Environmental and Infrastructure
     G&A          General and Administrative
     SCA          Service Contract Act
     1
         Contractor proprietary data omitted.
     2
         The audit team was unable to classify task order 30 and 41 professional services into Exempt, SCA, and Shaw E&I with the documentation provided.
      Appendix F. IDIQ Task Order Labor Rates for the First
                   Option Period

     Professional Services - Exempt
                                                                                                             1            1
            Task                         Labor                       Fringe             Overhead       G&A       Profit         Total    Burdened
         Order No.       Hours 1    Rate 1    Cost       1
                                                             Percent 1
                                                                         Amount1    Percent1 Amount1                           Amount     Rate 1

            5(4)                                                                                                              $ 1,109
           44(1)                                                                                                                 6,895
             46                                                                                                                  3,339
             48                                                                                                                 17,088
             50                                                                                                                  7,631
             52                                                                                                                  5,771
             53                                                                                                                  2,630
             54                                                                                                                  6,069
             55                                                                                                                  4,153
             57                                                                                                                  1,573
58




             58                                                                                                                  2,264
             59                                                                                                                 14,226
             60                                                                                                                  1,123
             61                                                                                                                    962
             62                                                                                                                  1,244
             64                                                                                                                 11,298
          Subtotal                                                                                                             $87,375

     Professional Services - SCA
            5(4)                                                                                                                1,058
            44(1)                                                                                                               3,569
             58                                                                                                                   248
             60                                                                                                                   174
             64                                                                                                                17,683
          Subtotal                                                                                                            $22,732


     Note: See the list of acronyms and the footnotes at the end of the appendix.
     Professional Services - Shaw E&I (includes others2)
                                                                                                                                                1                1
            Task                         Labor           Fringe                                               Overhead                G&A              Profit               Total         Burdened
         Order No.       Hours 1    Rate 1 Cost 1 Percent1 Amount 1                                      Percent1 Amount 1                                                 Amount          Rate 1

              5(4)                                                                                                                                                     $  5,601
             44(1)                                                                                                                                                       38,960
               46                                                                                                                                                         1,075
               47                                                                                                                                                        95,225
               48                                                                                                                                                         7,440
               49                                                                                                                                                       343,264
               50                                                                                                                                                         7,440
               51                                                                                                                                                        44,506
               52                                                                                                                                                         2,998
               53                                                                                                                                                        26,353
               54                                                                                                                                                        19,223
               55                                                                                                                                                         2,652
               56                                                                                                                                                       155,267
59




               57                                                                                                                                                           904
               58                                                                                                                                                        10,226
               59                                                                                                                                                       208,823
               60                                                                                                                                                           507
               61                                                                                                                                                           765
               62                                                                                                                                                           721
               63                                                                                                                                                     1,194,721
               64                                                                                                                                                        30,074
            Subtotal                                                                                                                                                 $2,196,745

             Total3                                                                                                                                                  $2,306,851

     E&I        Environmental and Infrastructure
     G&A        General and Administrative
     SCA        Service Contract Act

     1
       Contractor proprietary data omitted.
     2
       The data needed to calculate task orders 49 and 51, fringe, overhead, G&A, and profit rates and to classify the Professional Services into Exempt, SCA and Shaw E&I were not available
       in the documentation provided.
     3
       Labor cost could not be determined from the documents available for task orders 49 and 51; therefore, the labor hours for these task orders were not included in calculating the Subtotal
       or Total Labor Rate.
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Deputy Under Secretary of Defense (Installations and Environment)
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Commanding Officer, Naval Facilities Engineering Command Southwest
Director, Navy Strategic Sourcing

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform
Honorable Susan A. Davis, U.S. House of Representatives




                                          60
Deputy Assistant Secretary of the Navy
(Acquisition Management)




                       61
62
63
64
65
66
67
68
Navy Strategic Sourcing Comments




                     69
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Henry F. Kleinknecht
Anella J. Oliva
Rebecca L. Yovich
Stephanie N. Lay
Emily G. Gittins
Meredith H. Johnson
